<html>
<title> - REBALANCE TO ASIA: WHAT DOES IT MEAN FOR DEMOCRACY, GOOD GOVERNANCE AND HUMAN RIGHTS?</title>
<body><pre>[Senate Hearing 113-37]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 113-37

 
REBALANCE TO ASIA: WHAT DOES IT MEAN FOR DEMOCRACY, GOOD GOVERNANCE AND 
                             HUMAN RIGHTS?

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON EAST ASIAN 
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 21, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
81-469                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="82e5f2edc2e1f7f1f6eae7eef2ace1edefac">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JEANNE SHAHEEN, New Hampshire        RON JOHNSON, Wisconsin
CHRISTOPHER A. COONS, Delaware       JEFF FLAKE, Arizona
RICHARD J. DURBIN, Illinois          JOHN McCAIN, Arizona
TOM UDALL, New Mexico                JOHN BARRASSO, Wyoming
CHRISTOPHER MURPHY, Connecticut      RAND PAUL, Kentucky
TIM KAINE, Virginia
      Daniel E. O'Brien, Acting Democratic Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

         SUBCOMMITTEE ON EAST ASIAN AND PACIFIC AFFAIRS        

             BENJAMIN L. CARDIN, Maryland, Chairman        

BARBARA BOXER, California            MARCO RUBIO, Florida
ROBERT P. CASEY, Jr., Pennsylvania   RON JOHNSON, Wisconsin
TOM UDALL, New Mexico                JEFF FLAKE, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN McCAIN, Arizona

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Baer, Daniel B., Deputy Assistant Secretary for Democracy, Human 
  Rights and Labor, U.S. Department of State, Washington, DC.....    11
    Prepared statement...........................................    13
Bork, Ellen, director, Democracy and Human Rights, The Foreign 
  Policy Initiative, Washington, DC..............................    35
    Prepared statement...........................................    37
Cardin, Hon. Benjamin L., U.S. Senator from Maryland, opening 
  statement......................................................     1
Rood, Steven, country field representative for the Philippines 
  and Pacific Island Nations, The Asia Foundation, San Francisco, 
  CA.............................................................    30
    Prepared statement...........................................    32
Rubio, Hon. Marco, U.S. Senator from Florida, opening statement..     4
Yun, Joseph Y., Acting Assistant Secretary for East and Pacific 
  Affairs, U.S. Department of State, Washington, DC..............     6
    Prepared statement...........................................     8

                                 (iii)

  


REBALANCE TO ASIA: WHAT DOES IT MEAN FOR DEMOCRACY, GOOD GOVERNANCE AND 
                             HUMAN RIGHTS?

                              ----------                              


                        THURSDAY, MARCH 21, 2013

                               U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:33 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin (chairman of the subcommittee) presiding.
    Present: Senators Cardin, Udall, Murphy, Rubio, and 
Johnson.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Good morning, everyone. Let me welcome you 
to the first hearing for the Senate Foreign Relations Committee 
Subcommittee on East Asian and Pacific Affairs. I want to thank 
Senator Menendez, the chairman of the committee, for his 
cooperation as the subcommittee is starting its important 
responsibilities here in the 113th Congress.
    I also want to thank Senator Rubio, who I believe will be 
here shortly. Senator Rubio and I have met in order to plan a 
mutual agenda for the subcommittee during this Congress. We 
both thought that starting with the Rebalanced to Asia policy 
was the right way for the subcommittee to get the background we 
need in order to carry out the very important work of the 
subcommittee.
    Just by way of background, for those who are familiar with 
my own congressional career, I spent a good deal of time 
working on the Organization for Security and Cooperation in 
Europe, and had the opportunity of chairing the United States 
Helsinki Commission. We have many Asian partners that are in 
the OSCE, which is an indication of their willingness to look 
at the framework that we have used for security in Europe. Of 
course, we have full membership from those countries of the 
former Soviet Union in Central Asia.
    So we have had experience in dealing with some of the 
partner countries as it relates to security issues, which I 
think will be helpful to me as I take on the responsibility of 
the chair of this subcommittee.
    This will be the first of a series of hearings examining 
different elements of the administration's rebalanced Asia 
policy. This policy realigns U.S. diplomatic, economic, and 
military resources toward the Asia-Pacific region to help 
create a regional set of norms that lead to greater peace, 
stability, and economic growth in Asia.
    The rebalance to Asia is not about containing China but 
rather includes building a constructive relationship with 
China. It is not just about our military presence. When we take 
a look at our security interests in Asia, we look at three 
baskets, as we did in Helsinki. We look at, yes, the military 
aspects, and there have certainly been a lot of challenges in 
Asia as it relates to military threats. But we also take a look 
at the economic opportunities to build bridges in Asia, as well 
as our values and human rights. We think all three are 
extremely important as we try to rebalance our policies in Asia 
itself.
    In recent weeks, President Obama has reaffirmed the U.S. 
commitment to rebalancing to Asia and underscored the region's 
critical importance to U.S. prosperity and security. He 
understands, 
as do we, that the United States and Asian economies are tied 
together and that as they grow, our opportunities do, too. Asia 
accounts for more than a quarter of the global GDP, and over 
the next 5 years nearly half of all growth outside the United 
States is expected to come from Asia. Therefore, we have a 
direct interest in being involved from an economic point of 
view.
    Southeast Asia, in particular, has a rapidly expanding 
middle class and a highly educated labor pool. It is a largely 
untapped market which includes the world's fourth most populous 
country, Indonesia. It is estimated that by 2025, Asia will 
account for almost half of the world's economic output.
    We must also engage with Asia to protect our security 
interests. The threat of nuclear proliferation lingers over the 
Korean Peninsula. Disputes over territorial and historical 
claims persist. And ensuring free navigation along the critical 
maritime trade routes and the peaceful resolution of 
territorial disputes in the south and east China seas is in the 
national interest of the United States. These are all good 
reasons for us to pay more attention to the East Asia-Pacific 
region.
    But we must remember as we rebalance to Asia that the 
fundamental respect for the human rights of every person, every 
woman, man, and child, is the underpinning to security and 
prosperity. Good governance which includes a respect for human 
rights is the key to economic growth. As President Obama has 
said, ``History offers a clear verdict: Governments that 
respect the will of their people, which govern by consent and 
not coercion, are more prosperous, they are more stable, and 
more successful than governments that do not. Prosperity 
without freedom is just another form of poverty.''
    Rule of law, a fair system of justice, and transparent 
governance which allows for a strong civil society are the 
basic structures which allow a nation's citizens to have a 
voice, to live in freedom and to build their prosperity. We 
must strengthen these elements for our rebalance policy to 
succeed.
    Combating corruption and fostering good governance with 
respect to human rights and the rule of law is a daunting task, 
but we have made good progress, and we continue to work with 
our partners and allies in the region both on a bilateral basis 
and with regional organizations such as the Association of 
Southeast Asian Nations, known as ASEAN, and the Pacific Island 
Nations Forum, to institute and strengthen reform.
    ASEAN has taken first steps toward recognizing the 
importance of protecting human rights with the formation of the 
Intergovernmental Commission on Human Rights and the 2012 ASEAN 
Human Rights Declaration. But, as I know many of our ASEAN 
partners themselves recognize, these first steps are just that, 
first steps. I think we need to look at what these commitments 
are about, whether they need to be strengthened and how we can 
make sure that there is a way to hold countries accountable to 
basic human rights.
    And by way of comparison, I once again bring up what we 
have done in Helsinki. Helsinki is not a treaty. There is no 
formal way of enforcing the commitments that have been made. 
And yet I think history has shown that those commitments made 
in 1975 by the member states have been very much in the 
forefront, very much in the spotlight, and countries that have 
not adhered to those principles have been held accountable, not 
by formal means, but it starts with commitments that meet 
international norms. It is important that we review what has 
been done in ASEAN countries in this declaration as to whether 
they reach the international norms and whether there is a 
mechanism that will allow for accountability for those 
countries that need to do better.
    The signs of progress are encouraging. The number of 
democratic countries in the world has expanded from 30 in 1974 
to 117 today. Over the past 30 years the East Asia-Pacific 
region has become more democratic, with the Philippines, South 
Korea, Thailand, Mongolia, Taiwan, Indonesia, and Timor-Leste 
joining the family of democracies. The past 2 years have seen 
moves toward greater political freedom in Burma, long one of 
the region's most authoritarian systems. Helping Burma have 
free and fair elections in 2015 will be a top U.S. Government 
priority.
    Helping democratic states build institutions that deliver 
effective governance and deepen the legitimacy of their 
democratic systems is critical. We will continue to encourage 
free and fair elections throughout the region as Malaysia and 
Cambodia hold parliamentary elections this year and Indonesia 
holds its third direct democratic Presidential and 
parliamentary elections in 2014.
    But elections alone are not enough. We must make sure that 
the institutional structures that underpin a successful 
democracy are strengthened, from the judiciary to the 
bureaucracy to the legislature.
    To build momentum for democratic reform, it is critical to 
end subnational ethnic conflicts. Peace and stability are 
essential to democratic progress, for protecting human rights, 
for safe migration, and for combating trafficking in persons. 
The peace process in the Philippines is a good example, where a 
longstanding conflict in Mindanao now has a peaceful settlement 
and path forward following negotiations which Malaysia 
facilitated between the parties, civil society, and government 
monitors.
    As we encourage peaceful, democratic reform, and good 
governance, we must continue to push for protecting universal 
human rights by combating child labor and trafficking in 
persons, protecting religious freedoms, and empowering women. 
U.S. efforts to work with allies and friends in east Asia and 
the Pacific to prevent trafficking in persons in the region are 
beginning to pay off. In 2012, four EAP countries were moved 
off the State Department's Tier 2 Watchlist as a result of 
these efforts. That is an impressive improvement. We 
acknowledge that. But we must keep up these vigorous efforts to 
protect human rights. Trafficking in persons has been a top 
priority of the United States in foreign policy considerations, 
and a lot of progress has been made. But in Asia, there is 
still a lot more that needs to be done.
    We must remember that women's rights are human rights. 
Women are the barometer of a nation's success and its 
stability. In my previous role as chairman of the Subcommittee 
on International Development and Foreign Assistance, the 
successful integration of gender equity into our foreign aid 
programs was one of our top priorities, and we made progress. I 
welcome President Obama's March 19 nomination of Kathy Russell, 
former Chief of Staff to Dr. Jill Biden, to the important post 
of Ambassador at Large for Global Women's Issues at the 
Department of State. I look forward to her confirmation 
hearings. The Obama administration and the State Department 
have done a good job of promoting gender equity issues, and 
this will be one of our top priorities of this subcommittee.
    Senator Rubio, before you arrived I pointed out that you 
and I have had a chance to talk about the subcommittee and the 
importance of the subcommittee, and I very much appreciate the 
fact that we are working together on the agenda of our 
subcommittee hearings in order to focus the proper attention of 
the U.S. Senate to the challenges that we have in Asia and the 
Pacific. So I very much appreciate that, and I look forward to 
working with you in this Congress, and I thank you for your 
help and cooperation.
    Senator Rubio.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Mr. Chairman, and let me take the 
opportunity to thank you and your staff for how open they have 
been in engaging in this issue, which I think is an 
extraordinary opportunity to work on one of the most exciting 
regions in the world, and at a very exciting time in world 
history. I, too, look forward to working on a very robust 
agenda to ensure that the subcommittee plays a strong role 
within the foreign policy community in ensuring that our 
nation's policies in East Asia and the Pacific region further 
both our national interests and the goal of a better world.
    I said at the outset, Asia is incredibly vibrant, and it is 
also diverse ethnically, politically, economically, and the 
home of half the world's population. That alone is a reason to 
be paying a lot of attention. It has the second- and third-
largest economies in the world, and two out of our five largest 
trading partners. Clearly, a prosperous, democratic, and stable 
East Asia is crucial to our own national security, to our own 
safety, but also to our own prosperity.
    The administration has openly discussed an American pivot 
or rebalance toward East Asia, and at a future hearing I hope 
that we will more carefully explore exactly what this rebalance 
means in light of America's commitments in other parts of the 
world as well. But nevertheless, it is clear, and therefore I 
think worrisome to several Asia observers whether there is a 
comparable commitment to promoting democracy and respect for 
human rights as part of that rebalance.
    There is no doubt in my mind that a robust U.S. defense and 
economic presence in East Asia is a source of stability, but 
what is at stake in the region goes beyond just our ability to 
deploy sophisticated weapons to counter immediate and emerging 
threats. What would set us apart from authoritarian competitors 
and lay the groundwork for a truly American legacy in East Asia 
is also a strong commitment to advancing individual freedoms, 
as the chairman has discussed.
    The Republic of Korea, Japan, and Taiwan, those are just 
three examples of what Asian societies can accomplish by 
embracing individual freedom, free markets, and independent 
institutions that provide real checks and balances to political 
authority.
    At the other end of the spectrum stands ghastly regimes 
like the Kim family in North Korea, where for more than six 
decades the people have been enslaved, and it has caused untold 
suffering. This tyrannical regime systematically denies its 
citizens even the most basic personal freedoms, and it is 
estimated to hold up to 200,000 human beings, 200,000 human 
beings in political internment camps under gulag-style 
conditions.
    I am also concerned about China and to some extent Vietnam, 
with the myth of authoritarian capitalism and modernization, as 
well as authoritarian Burma, which we hope is in the process of 
a real transition, and I hope we will talk a little bit about 
that today.
    More broadly, the region has the largest number of human 
trafficking victims in the world. The chairman also pointed to 
that, at a rate of 3.3 victims for 1,000 people. That is 
shocking. These victims are enslaved in labor trafficking, as 
well as sex trafficking across the region. I hope the United 
States will continue to address the challenge of human rights 
and democracy with boldness and clarity and consistency.
    History has shown that there simply is no substitute for 
transparent, accountable, and responsive government, whether it 
is responding to citizens' calls for greater economic 
opportunity, ensuring their safety, aiding those affected by 
natural disasters. A government's ability to earn the trust of 
its citizens is absolutely essential to its long-term 
legitimacy, and therein lies the importance of this hearing and 
hearings like that.
    I hope that by holding this hearing we are sending a signal 
to the region and to the administration and to our partners 
here in the Senate and in the House that there is a bipartisan 
commitment to ensure the promotion of human rights and 
democratic governance all over the world, but especially at 
this time in East Asia and the Pacific. If we stick to these 
principles, if we stick to these principles and follow through 
on our promises, we have the opportunity to help produce long-
lasting democratic stability, human rights, and prosperity in 
the region, a legacy that I think we will all be proud of; a 
legacy that our children will be proud of us for.
    So, thank you for holding this hearing, and I look forward 
to many more like this.
    Senator Cardin. Thank you, Senator Rubio.
    On our first panel we are very pleased to have the Acting 
Assistant Secretary of State for the Bureau of East Asia and 
Pacific Affairs at the Department of State, Mr. Joseph Yun. It 
is a pleasure to have you with us today.
    Mr. Yun is a career diplomat, and we thank you very much 
for your long service to our country. You come to this post 
with a great deal of practical background, considering that you 
have had assignments in South Korea, Thailand, France, 
Indonesia, and Hong Kong.
    You are joined by Mr. Daniel Baer, Deputy Assistant 
Secretary for the Bureau of Democracy, Human Rights and Labor 
at the Department of State. His portfolio includes the Office 
of East Asia and Pacific Affairs, and the Office of 
Multilateral and Global Affairs, so is a key person on the 
subjects that we want to talk about today.
    We welcome both of you. Your full statements will be made 
part of the record.
    We will start with Mr. Yun.

STATEMENT OF JOSEPH Y. YUN, ACTING ASSISTANT SECRETARY FOR EAST 
     ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Yun. Thank you very much, Mr. Chairman, and thank you, 
Ranking Member Rubio, and members of the committee, for having 
me here today. I am here with my friend and colleague, Dan 
Baer, with whom I have worked very closely over the past 
several years in promoting democracy and human rights issues in 
Asia and Pacific.
    Mr. Chairman, as you and Ranking Member Rubio mentioned, 
the United States is bound to Asia-Pacific through geography, 
history, alliances, trade, and people-to-people ties, and those 
will only grow in importance over the next decade and beyond. 
Over the past 4 years, the U.S. Government has made a 
deliberate strategic effort to broaden and deepen our 
engagement in the region in what has come to be known as 
rebalance to the Asian-Pacific. This strategic rebalance is 
based on the recognition that the Asia-Pacific's political and 
economic future and the future of the United States are deeply 
linked.
    The rebalance to the Asia-Pacific region covers a broad 
range of strategic objectives: Deepening our alliances in the 
region; boosting economic growth and trade; strengthening our 
relationships with emerging powers such as China, Indonesia, 
Vietnam, and India; expanding good governance; developing 
energy efficiency and environmental protection; and especially 
expanding people-to-people ties.
    While the rebalance reflects the importance the U.S. 
Government places on a strategic and economic engagement in the 
region, the dimension that binds the entire strategy together 
is our strong support for advancing democracy and human rights, 
what I would call our value issues. Democracy and respect for 
human rights are increasingly part of the fabric of the Asia-
Pacific. In fact, according to Freedom House's most recent 
``Freedom in the World'' report, during the past 5 years the 
Asia-Pacific region has shown the greatest progress in the 
world in achieving steady gains in political rights and civil 
liberties.
    Mr. Chairman, as you mentioned, several examples come to 
our mind as well, Indonesia being one of them, so is Timor-
Leste, Thailand, Taiwan, and more. Most recently, we have seen 
very positive developments in Burma that have allowed us to 
open a new chapter in bilateral relations. In November last 
year, President Obama became the first sitting United States 
President to visit Burma. During his visit, he emphasized that 
the United States would help Burma solidify the progress it has 
made, especially in addressing human rights challenges, and 
also we would help them strengthen the hand of those seeking 
further reform.
    At the same time that we have seen these positive 
developments, we have continued to press for improvements with 
those governments that fall short on human rights and whose 
democratic institutions remain weak. As Ranking Member Rubio 
mentioned, North Korea is a case in point. North Korea's nearly 
25 million people are in dire need of improvement in their 
welfare, protection of human rights, and that remains an 
essential goal of our overall North Korea policy.
    The United States also remains deeply concerned about the 
continued deterioration in the human rights situation in China. 
We will continue to discuss human rights issues frankly with 
our Chinese counterparts and press them to respect the rule of 
law and protect the human rights and fundamental freedoms of 
all of its citizens.
    Mr. Chairman, we recognize that there is much more work 
that needs to be done, especially in the countries I have just 
mentioned, as well as in countries like Cambodia, Laos, and 
Vietnam, to ensure that all citizens enjoy media freedom and 
freedom of expression, and that there is space for civil 
society to have their voices heard. We remain quite concerned 
about the disappearance of Lao civil society activist Sombath 
Somphone. In Cambodia, we have consistently raised our concerns 
about the case of exiled opposition leader Sam Rainsy.
    Clearly, there is a significant amount of work still to be 
done, but there are also many examples of areas where we have 
worked very closely with our partners in the region to promote 
a variety of human rights and democracy issues. We emphasize 
the dependence of democratic institutions on a strong rule of 
law. We make it a priority to protect the rights of women 
around the world and empower them economically and politically. 
We also promote the protection of the human rights of lesbian, 
gay, bisexual, and transgender persons around the world.
    We have joined with Indonesia, the Philippines, and five 
other founding governments to launch a global forum, the Open 
Government Partnership, where governments work closely with 
civil society to develop action plans with concrete commitments 
to improve transparency of governments and how they serve the 
people. These are just a few examples of many ways in which we 
actively support democracy and human rights in the region.
    Mr. Chairman, thank you for giving me the opportunity to 
testify today. I am pleased to answer any questions you may 
have. Thank you.
    [The prepared statement of Mr. Yun follows:]

     Prepared Statement of Acting Assistant Secretary Joseph Y. Yun

    Chairman Cardin, Ranking Member Rubio, and distinguished members of 
the subcommittee, thank you for the opportunity to appear before you 
today with my colleague, Dan Baer, to testify on the important issues 
of democracy and human rights in the context of the rebalance to Asia. 
I would also like to thank the committee for its leadership in 
supporting and promoting engagement with the Asia-Pacific region and 
advancing U.S. interests there. I look forward to working further with 
you and other Members of Congress to continue to expand our involvement 
in the region.
    The United States is bound to Asia through geography, history, 
alliances, trade, and people-to-people ties, which will continue to 
grow in importance over the next decade and beyond. Over the last 4 
years, the U.S. Government has made a deliberate, strategic effort to 
broaden and deepen our engagement in the region in what has come to be 
known as the ``rebalance'' to the Asia-Pacific. This strategic 
rebalance is based on the recognition that the Asia-Pacific's political 
and economic future and the future of the United States are deeply and 
increasingly linked.
    The rebalance to the Asia-Pacific region covers a range of 
strategic objectives: deepening our alliances in the region; boosting 
economic growth and trade; strengthening our relationships with 
emerging powers; expanding good governance, democracy, and human 
rights; shaping a regional architecture; and deterring conflict.
    And while the rebalance reflects the importance the U.S. Government 
places on our strategic and economic engagement in the Asia-Pacific, 
the dimension that binds the entire strategy together is our strong 
support for advancing democracy and human rights.
    Democracy and human rights give people the chance to live with 
dignity and to achieve a better future. Good governance is critical to 
reducing poverty, building rule of law, and allowing for open 
discussion of ideas in civil society. Strong democratic institutions 
increase transparency and ethics, which help to combat corruption. 
Democracies give people a way to devote energy to productive political 
and civic engagement and reduce the allure of extremism. And open 
societies offer more opportunities for economic, educational, cultural, 
religious, and people-to-people exchanges, which are part of the 
foundation for peace. It is for these reasons that the U.S. Government 
places so much importance on democracy and human rights and works with 
governments, civil society activists, journalists, and human rights 
organizations around the world. It is not only the right thing to do; 
it is also the strategically smart thing to do.
    Democracy and respect for human rights are increasingly part of the 
fabric of the Asia-Pacific. In fact, according to Freedom House's most 
recent ``Freedom in the World'' report, during the past 5 years, the 
Asia-Pacific region has shown the greatest progress in the world in 
achieving steady gains in political rights and civil liberties. There 
are numerous examples that immediately come to mind in the Asia-Pacific 
that have demonstrated profound progress in respecting human rights and 
good governance. In just 15 years, Indonesia has transitioned rapidly 
from an authoritarian regime to a thriving democracy. Timor-Leste, 
Southeast Asia's youngest democracy, is already a leader in injecting 
the concerns of fragile and post-conflict countries into discussions of 
aid effectiveness and the post-2015 development agenda for other post-
conflict countries. Thailand has overcome sharp political differences 
and military rule to restore democratic governance. Taiwan's voters 
have twice changed their ruling party through the power of peaceful 
balloting, and Taiwan was awarded the highest rating for political 
rights and the second-highest rating for civil liberties in the 2013 
``Freedom in the World'' report. And perhaps the most striking example 
of all in recent history is Burma, where positive developments on a 
range of concerns of the international community have allowed us to 
open a new chapter in bilateral relations.
    At the same time that we have seen positive developments, we 
continue to press for improvements with those governments that fall 
short on human rights and whose democratic institutions remain weak. 
Improving the welfare of North Korea's nearly 25 million people, who 
live under conditions which, as described by U.N. Special Rapporteur on 
Human Rights in North Korea Marzuki Darusman, may constitute crimes 
against humanity, is an essential goal of our overall North Korea 
policy. We have cosponsored a resolution at the U.N. Human Rights 
Council to establish a Commission of Inquiry, building on Special 
Rapporteur Darusman's work, to investigate systematic, widespread, and 
grave human rights violations. With our nongovernmental organization 
(NGO) partners, we continue to support programs that document and raise 
awareness about human rights conditions, promote rule of law and lay 
the foundation for civil society, and promote the flow of outside 
information to the North Korean people.
    Human rights issues continue to be a central element of the U.S.-
China bilateral relationship. We continue to discuss human rights 
frankly with Chinese counterparts and to press China to respect the 
rule of law and protect the human rights and fundamental freedoms of 
all its citizens. But we remain concerned about the continued 
deterioration in the human rights situation in China. The use of forced 
disappearances, extralegal detentions, and lack of due process in 
judicial proceedings are troublesome, particularly when such practices 
target public-interest lawyers, writers, artists, intellectuals, 
bloggers, religious figures, and activists in China for exercising 
their internationally recognized human rights. Authorities continue the 
severe cultural and religious repression of ethnic Uighurs and 
Tibetans, and China's response to self-immolations by Tibetans has been 
harsh, including using criminal penalties to punish the relatives and 
associates of those who self-immolated.
    We recognize that there is much work to be done in countries like 
Cambodia, Laos, and Vietnam to ensure that all citizens enjoy media 
freedoms and freedom of expression and that there is space for civil 
society to have their voices heard. We remain concerned about the 
disappearance of Lao civil society activist Sombath Somphone. As a 
respected figure who could work with activists, the government, and the 
international community alike, his disappearance 4 months ago has sent 
a chill through the activist community. We urge the Lao Government to 
redouble their investigation efforts and to be transparent about 
information they may have about his whereabouts and well-being. In 
Cambodia, we have consistently raised our concerns about the cases of 
independent radio operator Mam Sanando, recently freed from detention, 
and exiled opposition leader Sam Rainsy. We were encouraged by the 
release of Mam Sonando, but will continue to urge Cambodia to improve 
its record on the issues of resolving land rights and tolerance of 
dissent, and to fulfill its pledge to genuine multiparty democracy, 
particularly in the runup to critical national elections in July.
    We also have more work to do in engaging the Association of 
Southeast Asian Nations (ASEAN) in their historic attempt to address 
the importance of promoting and protecting human rights in Southeast 
Asia as a region. In November 2012, ASEAN announced the adoption of the 
ASEAN Human Rights Declaration. As we noted in November 2012, we are 
deeply concerned that many of the Declaration's principles and articles 
could weaken and erode universal human rights and fundamental freedoms 
as contained in the Universal Declaration of Human Rights (UDHR). We 
urge ASEAN, in consultation with civil society, to amend and strengthen 
its Declaration to reflect a commitment to protect and advance fully 
the fundamental freedoms of its people and to bring the document in 
line with the standards embodied in the UDHR and the International 
Covenant on Civil and Political Rights.
    Clearly, there is a significant amount of difficult work still to 
be done, but there are also so many examples of areas where we work 
closely with our partners in the Asia-Pacific region to promote a 
variety of human rights and democracy issues. We are committed to 
working with countries across the region to strengthen judicial systems 
and rule of law. In the Philippines, for example, through USAID's 
Judicial Strengthening to Increase Court Effectiveness (JUSTICE) 
program, the U.S. Government is playing an important role in the 
Philippines' effort to help transform its judicial system. JUSTICE, an 
approximately $20 million program, focuses on improving court 
efficiency, primarily through docket decongestion and reduction of 
trial delays, strengthening contract and intellectual property 
enforcement, and building confidence in the integrity of courts.
    We are also focused on protecting the rights of women throughout 
the region and on empowering them economically and politically. In 
keeping with this goal, we have directed our embassies and consulates 
in the Asia-Pacific region to promote women's rights and equality 
through policy development, programming, monitoring and reporting, 
management, and training. We have invested in programs for ASEAN that 
directly address women's issues through support of ``Track II'' civil 
society programs such as the Human Rights Resource Center and 
consultations with the ASEAN Commission for the Protection of the 
Rights of Women and Children. The efforts of our regional USAID office 
in Port Moresby to empower women and strengthen democratic institutions 
in Papua New Guinea were a crucial component of that country's 
successful election in July 2012, which witnessed the election of three 
female Members of Parliament.
    We are also proud of our leadership in the Equal Futures 
Partnership, a multistakeholder initiative developed by the White House 
after President Obama's 2011 U.N. General Assembly address. The 
partnership consists of a core group of member states, working with 
civil society, private sector organizations, and other multilateral 
stakeholders, including the World Bank and U.N. Women working together 
to identify key barriers to women's political and economic empowerment 
and address them with specific new commitments. Founding members 
include Indonesia and Australia; Thailand and New Zealand have declared 
their intent to join. We hope to enlist the participation of other 
Asian-Pacific countries in the future.
    In July 2012, the U.S. and Cambodian Governments convened the 
first-ever Gender Equality and Women's Empowerment Policy Dialogue as 
part of the Lower Mekong Initiative (LMI). Delegations from LMI 
countries (Thailand, Cambodia, Laos, Vietnam, and Burma) and from 
Australia, New Zealand, and Japan attended the conference. The more 
than 150 representatives discussed integration of women into policy 
planning, gender equality and women's empowerment, and increased 
participation by women in economic and political development. As a 
result of this conference, the Department of State and USAID are 
coordinating several new initiatives that empower women from LMI 
countries in the fields of science and technology, as well as in areas 
such as natural resource management.
    We also take very seriously the goal of advancing the human rights 
of lesbian, gay, bisexual, and transgender (LGBT) persons around the 
world. On International Human Rights Day, December 6, 2011, former 
Secretary Clinton famously declared in Geneva that ``gay rights are 
human rights and human rights are gay rights.'' On that same day, 
President Obama signed a Presidential Memorandum directing all Federal 
agencies engaged abroad to ensure that U.S. diplomacy and foreign 
assistance promote and protect the human rights of LGBT persons. 
Through our missions abroad we are working to fulfill this directive by 
engaging actively with civil society groups and governments. Highlights 
include Mission China's engagement with a federation of LGBT NGOs to 
support more than 33 rights events held across six provinces, and the 
``Proud to be Us'' event supported by the U.S. Embassy to Laos.
    In terms of promoting transparent and inclusive governments that 
provide a strong foundation for democracy, we joined with Indonesia, 
the Philippines and five other founding governments to launch a global 
forum, the Open Government Partnership (OGP) in 2011. OGP aims to 
secure concrete commitments from participant governments in order to 
promote transparency, empower citizens, fight corruption, and harness 
new technologies to strengthen governance. Under this initiative 
governments are working in close consultation with civil society to 
develop country action plans with concrete innovative commitments to 
improve how governments serve their people. There are currently 58 
countries in OGP, including the Republic of Korea. Indonesia is 
currently a cochair of the initiative.
    Before I conclude my testimony, I would like to make special 
mention of Burma, a country in which we are seeing a great shift with 
regard to respect for human rights and good governance, and a country 
that demonstrates the possibility for change that exists in the Asia-
Pacific region. In November 2012, President Obama became the first 
sitting U.S. President to visit Burma. He affirmed U.S. support for 
democracy, civil society, and freedom and noted the centrality of human 
rights to our bilateral relationship. Recognizing the progress that 
Burma has made across a wide range of areas, he expressed our country's 
unwavering support for the aspirations of all the people of Burma. Last 
year, we reestablished our USAID Mission in Rangoon, and over fiscal 
years 2012 and 2013, we will provide $170 million to strengthen 
democracy, human rights, and the rule of law; promote transparent 
governance; advance peace and reconciliation; meet humanitarian needs; 
and enhance economic development that can improve the health and 
livelihoods of the Burmese people. We supported an expanded U.N. 
Development Program mandate in Burma to address inclusive community 
development, poverty reduction, and local governance capacity-building 
programs, among other areas. We agreed upon a joint plan to combat 
human trafficking. We have also restarted the Fulbright program and 
held the first U.S. university fair in Rangoon last month. However, as 
the President also made clear, there is still a long road ahead. That 
is why we are focused on helping Burma solidify the progress it has 
made so far and strengthen the hand of those seeking further reform, so 
that that process becomes irreversible.
    We recognize that much of the history of the 21st century will be 
written in Asia, and we are working to ensure that it is a century in 
which economies grow, conflicts are avoided, and security is 
strengthened. Supporting democracy and human rights across the region 
will be a central component of our efforts.
    Thank you for giving me the opportunity to testify today. I am 
pleased to answer any questions you may have.

    Senator Cardin. Thank you.
    Mr. Baer.

  STATEMENT OF DANIEL B. BAER, DEPUTY ASSISTANT SECRETARY FOR 
 DEMOCRACY, HUMAN RIGHTS AND LABOR, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Baer. Thank you very much, Chairman Cardin and Ranking 
Member Rubio and Senator Johnson, for being here. Thank you to 
the committee for hosting this hearing and inviting me to 
testify with my good friend and colleague, Joe Yun. As Joe has 
said, we have had the opportunity to work very closely 
together, and it has been a great professional joy for me.
    The Obama administration's rebalance is a purposeful, 
strategic move in our foreign policy. It is motivated by the 
opportunity to develop deeper and more wide-ranging 
partnerships in a part of the world that is increasingly 
important to American interests.
    Headline news coverage of the pivot often focuses on issues 
of hard security and trade agreements. The role of political 
progress, and in particular the advance of human rights and 
democracy, is less frequently a strand in the public discourse. 
So the topic of this hearing fills a gap and gives us an 
opportunity to consider important questions.
    Does the rebalance, as a purposeful addition to U.S. 
foreign policy, include progress on human rights and democracy 
as part of its objectives? And does progress, or lack thereof, 
on human rights and democratic governance affect the prospects 
of achieving the full range of objectives that motivate the 
broader rebalance? The questions are related, of course, and 
the answer to both is a firm ``Yes.''
    In the second half of the 20th century, human rights were a 
clear pillar in our regional foreign policy with respect to 
Europe. We recognize that it was not only our moral convictions 
but our economic and security interests that would be best met 
by a democratic Europe. The underlying truths haven't changed. 
Human rights and democracy are foundational to our foreign 
policy because they are foundational to our polity, and also 
because U.S. national interests will be most durably met by a 
world in which states are part of a stable rule-based order. 
That stable order can only be grounded on the durable peace 
that human rights and democratic governance deliver.
    That belief animated President Obama's 2011 speech to the 
Australian Parliament announcing the rebalance, and the 
necessity of U.S. leadership in support of human rights as a 
central element of it. Because while the region includes big 
and fast-growing economies and opportunities for more effective 
partnerships, we can't forget that the region also includes 
many hundreds of millions of people who have yet to experience 
protections for their human rights. It includes strongmen who 
manipulate flawed elections and suppress speech in order to 
stay in power. It includes places where the rule of law is 
notably absent and where members of religious and other 
minorities suffer abuses with impunity. It includes governments 
that treat the Internet as a new threat to be regulated and 
controlled, rather than as a platform for free expression and 
opportunity.
    For as long as these conditions remain, both the region's 
potential progress and the potential dividends of our 
engagement will be hampered. There is much to gain in my view, 
but achieving the full potential return on our investment, both 
for our citizens and for the people of the region, depends on 
political progress.
    In his speech in Canberra, President Obama spoke 
specifically to three ways in which we are exercising 
leadership. First, he said that we have strengthened civil 
society because it empowers citizens to hold their governments 
accountable. Burma's budding democratic transition will succeed 
only if the country's civil society is strong and can help 
drive it. That is why we continue to press that the political 
leaders recently released from Burmese prisons return to 
society with their full civil rights restored. It is why we 
have encouraged the government to engage civil society 
directly, including the recently formed committee that is 
charged with working through the remaining political prisoner 
cases. It is why the administration's reporting requirements 
will ask U.S. investors how they have conducted human rights 
due diligence.
    In Cambodia, civil society organized and led a campaign to 
resist a menacing proposed NGO law. We supported their efforts, 
and former Secretary Clinton repeatedly urged the Cambodian 
Government to scrap the law. Prime Minister Hun Sen eventually 
announced that the NGO law would be shelved and would not be 
brought forward again without civil society support.
    Other challenges remain, of course, in Cambodia. We were 
deeply disturbed to see the re-arrest of Born Samnang and Sok 
Sam Oeun, who are widely viewed as scapegoats in the 2004 
murder of union leader Chea Vichea. Opposition leader Sam 
Rainsy remains in self-imposed exile to avoid imprisonment on 
politically motivated charges. While we welcomed Mam Sonando's 
release last week as a positive step, the charges continue to 
hang over his head, and others remain in jail.
    The second element President Obama committed us to was 
advancing the rights of all people, including women, religious 
minorities, and other vulnerable populations. Members of this 
subcommittee know that there are parts of the region where not 
only are members of minority groups not protected, but their 
rights are actively targeted for repression. The United States 
remains deeply concerned about repressive Chinese policies that 
threaten the distinct cultural, linguistic, and religious 
heritage of Tibetans and that have contributed to a climate of 
increasing desperation in which more than 100 Tibetans have 
resorted to self-immolation. In Xinjiang, where I visited in 
late 2011, members of the Uighur population continue to face 
discrimination, arbitrary detention, and restrictions on 
religious freedom and freedom of movement. Unsurprisingly, 
tensions remain high.
    Almost everyone is vulnerable to abuses and violations in 
North Korea. Just this week, the United States is supporting a 
resolution at the Human Rights Council to create a commission 
of inquiry into the systematic and widespread abuses committed 
by that regime.
    Finally, in Canberra, the President said we encourage open 
government because democracies depend on an informed and active 
citizenry. The Open Government Partnership is being chaired by 
Indonesia this year, but initiatives like the OGP only work 
when they are supported by an open and active civil society. So 
the United States will continue to press for progress to ensure 
protections for freedom of expression, association, and 
assembly.
    One area where this is particularly important, where there 
are worrying trends in some parts of the region, is with the 
Internet and new connection technologies. In countries like 
Vietnam, which has an impressive level of Internet penetration 
but a large number of bloggers and others who have been 
imprisoned for what they said online, we must continue to make 
the case that human rights apply online as they do offline. We 
need to underscore that it is no coincidence that Silicon 
Valley is in a country where ideas are exchanged freely and 
that Vietnam's Steve Jobs or Mark Zuckerberg will not be able 
to contribute to the growth of their country if he or she is 
sitting in a prison cell because of something written online.
    I know that Secretary Kerry, who has long maintained a deep 
personal interest in the region, is committed to carrying 
forward the work of leading the rebalance in a way that 
advances all of the interests of the United States, including a 
strong rule-based global order grounded in respect for human 
rights, that enables durable economic prosperity and peace.
    Thanks very much for having me, and I will be happy to take 
your questions.
    [The prepared statement of Mr. Baer follows:]

    Prepared Statement of Deputy Assistant Secretary Daniel B. Baer

    Chairman Cardin, Ranking Member Rubio, and distinguished members of 
the subcommittee, thank you for inviting me to testify today with my 
good friend and colleague, Acting Assistant Secretary Joe Yun.
    The Obama administration's ``rebalance'' is a purposeful, strategic 
move in our foreign policy. It is motivated by opportunity to develop 
deeper and more wide-ranging partnerships in a part of the world that 
is increasingly important to American interests. The region includes 
the second- and third-largest economies in the world and some of the 
fastest growing ones, economies with enormous future potential; the 
vast majority of U.S. cross-ocean trade passes through the region's 
shipping channels; and regional security in Asia has a direct effect on 
U.S. interests as the recent actions and threats by the North Korean 
regime underscore. The rebalance offers an opportunity to build 
resilient networks of cooperation, trust, and stable expectations that 
will protect U.S. interests and help us remain prepared to tackle 
shared challenges in the years to come.
    Headline news coverage of the Obama administration's rebalance or 
``pivot'' to the Asia-Pacific region often focuses on questions of hard 
security, military dispositions, and trade agreements. The role of 
political progress--in particular, of the advance of human rights and 
democracy--is less frequently a strand in the public discourse about 
the pivot. So the topic of this hearing helps fill a gap, and gives us 
an opportunity to consider important questions: Does the ``rebalance,'' 
as a purposeful addition to U.S. foreign policy, include progress on 
human rights and democracy as part of its objectives? And does 
progress--or lack thereof--on human rights and democratic governance 
affect the prospects of achieving the full range of objectives that 
motivate the broader ``rebalance''?
    The questions are related, of course, and the answer to both is a 
firm, ``Yes.''
    The advance of human rights and democracy has long been an 
established objective of U.S. foreign policy through administrations of 
both parties. In the second half of the 20th century, human rights were 
a clear pillar in our regional foreign policy with respect to Europe--
we recognized that it was not only our moral convictions but our 
economic and security interests that would best be met by a democratic 
Europe. The underlying truths haven't changed: human rights and 
democracy are foundational to our foreign policy because they are 
foundational to our polity; and because U.S. national interests will be 
most durably met by a world in which states are part of a stable rules-
based order. That stable order can only be grounded on the durable 
peace that human rights and democratic governance deliver.
    That's why our 2010 National Security Strategy unambiguously 
declares that, ``the United States can more effectively forge consensus 
to tackle shared challenges when working with governments that reflect 
the will and respect the rights of their people, rather than just the 
narrow interests of those in power.'' That belief animated President 
Obama's 2011 speech to the Australian Parliament announcing the 
rebalance, and the necessity of U.S. leadership in support of human 
rights as a central element of it. Because while, as I've said, the 
region includes big and fast-growing economies, as well as 
opportunities for more effective partnerships in tackling transnational 
security issues, and while there are many opportunities for mutually 
beneficial cooperation in the years ahead, we cannot forget that the 
region also includes many hundreds of millions of people who have yet 
to experience protections for their universal human rights. It includes 
strongmen who manipulate flawed elections and suppress speech and 
expression in order to stay in power, and it includes places where the 
``rule of law'' is notably absent and where members of religious and 
other minorities suffer abuses with impunity. It includes governments 
that treat the Internet as a new threat to be regulated and controlled 
rather than as a platform for free expression and opportunity. For as 
long as these conditions remain, both the region's potential progress 
and the potential dividends of our engagement, will be hampered. There 
is still much to gain, in my view, but achieving the full potential 
return on our investment--both for our citizens and for the people of 
the region--depends on political progress.
    In this respect, in his speech in Canberra, President Obama spoke 
specifically to three ways in which we are exercising leadership. I 
want to touch on each of them--and briefly offer a few concrete 
examples.
    First, President Obama declared that ``We help strengthen civil 
societies, because they empower our citizens to hold their governments 
accountable.'' We are well aware of the need for political change in 
many places, and we are also well aware that durable change is most 
likely to come from within. That means we can be effective by standing 
up for civil society, throwing civil society actors a lifeline of 
support when they need it, and helping to preserve the space for them 
to make the case for change in their own societies.
    Burma's budding democratic transition will succeed only if the 
country's civil society is strong and can help drive it. That's why we 
continue to press the Burmese Government to ensure that the political 
leaders recently released from Burmese prisons return to society with 
their full civil rights restored and with their academic and 
professional credentials recognized. These men and women will be 
critical building blocks of a new, robust civil society in Burma and we 
must support them.
    We have encouraged the Government of Burma to engage civil society 
directly to chart a new course and to find ways of working in 
partnership. One timely example of this is the recently formed 
committee--chaired by the government and including civil society, 
opposition party representatives and the new national human rights 
commission--that is charged with working through remaining political 
prisoner cases. This is a great opportunity--not only to free remaining 
political prisoners and contribute to broader national reconciliation, 
but also to provide a concrete example of how government and civil 
society can work together to tackle a tough issue.
    We have kept civil society in mind as we have eased sanctions. The 
administration's reporting requirements will ask U.S. investors whose 
aggregate new investment exceeds $500,000 to report to the State 
Department on a number of issues, including how they have conducted 
human rights due diligence, by, for example, complying with 
international standards and engaging civil society and others on 
potential impacts of business investments.
    We also have also supported the emergence of enabling environment 
for civil society in Burma. Because the existing civil society law in 
Burma is highly restrictive, we have encouraged civil society and the 
government to work together to change it so that NGOs are able to 
freely operate and so that the country's protection of the fundamental 
freedoms of assembly and association are consistent with international 
best practices.
    Twenty-one years after the accords that ended the horrors of war, 
Cambodia has a vibrant civil society that remains a strong, independent 
force able to push for accountability and improvements from the 
Cambodian Government. Several years ago, the Cambodian Government 
sought to push through laws aimed at weakening civil society by 
stifling human rights nongovernmental organizations (NGOs) and trade 
unions. Cambodian civil society organized and led a campaign to resist 
these laws. We supported their efforts, and former Secretary Clinton 
repeatedly urged the Cambodian Government to scrap the proposed NGO 
law. We were pleased when Prime Minister Hun Sen announced, at the end 
of 2011, that the NGO law would be shelved and would not be brought 
forward again without civil society's support. The trade union law, 
though much improved after receiving civil society input, has yet to be 
adopted. Needless to say, civil society and the international community 
remain on guard.
    Other challenges remain. We were deeply disturbed to see 
independent broadcaster Mam Sonando jailed last July on charges of 
insurrection, and the re-arrest of Born Samnang and Sok Sam Oeun, who 
are widely viewed as scapegoats in the case of the 2004 murder of union 
leader Chea Vichea. Opposition leader Sam Rainsy remains in self-
imposed exile to avoid imprisonment on politically motivated charges. 
In his visit to Cambodia last November, President Obama underscored our 
concerns about human rights and democracy directly to Prime Minister 
Sen. We welcomed Mam Sonando's release last week as a positive step, 
but the charges continue to hang over his head, and several others 
remain in jail or under threat for protesting seizure of their land or 
for reporting on the destruction of Cambodia's forests.
    The second element I'd like to highlight from President Obama's 
speech in Canberra is his commitment of U.S. leadership to--quote--
``advance the rights of all people--women, minorities, and indigenous 
cultures--because when societies harness the potential of all their 
citizens, these societies are more successful, they are more prosperous 
and they are more just.''
    Members of this subcommittee know that there are parts of the 
region where not only are members of minority groups not protected, but 
also their rights are actively targeted for repression. These policies 
don't just violate those individuals' rights, they exacerbate tensions 
and can lead to the kind of social instability that challenges 
political and economic structures. The United States remains deeply 
concerned about repressive Chinese policies that threaten the distinct 
cultural, linguistic, and religious heritage of Tibetans, and that have 
contributed to a climate of increasing desperation in which more than 
100 Tibetans have resorted to self-immolation. In Xinjiang, where I 
visited in late 2011, members of the Uighur population continue to face 
discrimination, arbitrary detention, and restrictions on religious 
freedom and freedom of movement. Unsurprisingly, social tensions remain 
high.
    Elsewhere in the region, where democracy is taking root and 
democratic gains are undeniable, building strong democracies that hold 
fast to protections for all citizens, even when they are unpopular with 
the majority, is an ongoing challenge. Indonesia's democratic progress 
in the last 15 years has been truly remarkable. While the vast majority 
of Indonesians freely practice their religious beliefs, some religious 
minorities have found themselves the victims of terrible violence and 
abuses, and the government will have to work to do more to protect all 
citizens.
    And even in addressing particularly difficult situations like North 
Korea, the United States has continued, with our international 
partners, to demonstrate our concern about the regime's abuses and our 
compassion for the North Korean people. Just this week, the United 
States is supporting efforts at the United Nations Human Rights 
Council's 22nd session in Geneva to urge adoption of a Commission of 
Inquiry into the systematic and widespread abuses committed by the 
regime.
    Finally, in Canberra, the President said that, ``we encourage open 
government, because democracies depend on an informed and active 
citizenry.''
    Open government requires affirmative efforts to make transparent 
aspects of government decisionmaking and activity, and to preserve an 
open society in which citizens are free to scrutinize and criticize 
government and identify opportunities for improvement. The Open 
Government Partnership (OGP)--a multilateral initiative that now 
includes governments and civil society from around the world--is now 
being cochaired by Indonesia and offers opportunities for practical 
cooperation among governments in making governance better and more 
transparent.
    But initiatives like OGP only work if they are supported by an open 
and active civil society, so the United States will continue to press 
for progress to ensure protections for freedom of expression, 
association, and assembly. One area where this is particularly 
important, and where there are worrying trends in some parts of the 
region, is with, regard traditional media, as well as the Internet and 
new connection technologies.
    Whereas a few years ago, governments were taking a technical 
approach to Internet repression--using filters, surveillance, malware, 
and other techniques, we now see increasingly that they are pairing 
ever more sophisticated technical attacks with a regulatory approach, 
where governments also utilize legislation to limit Internet freedom. 
In countries like Vietnam--which has an impressive level of Internet 
penetration but a large number of bloggers and others who have been 
imprisoned for what they've said online--we must continue to make the 
case that human rights apply online as they do offline. We need to 
underscore that it's no coincidence that Silicon Valley is in a country 
where ideas are exchanged freely, and that Vietnam's Steve Jobs or Mark 
Zuckerberg won't be able to contribute to the growth of the country if 
he or she is sitting in a prison cell because of something she/he wrote 
on a blog.
    The Asia-Pacific region today is more free, more prosperous, and 
more respecting of internationally recognized human rights than at any 
point in history. Mongolia, South Korea, Japan, Taiwan, Australia, New 
Zealand, and many Pacific Island nations form an arc of democracy and 
freedom that, while far from perfect, serves as a model and a beacon of 
hope. Younger democracies, most notably Indonesia, have emerged to give 
voice to their people and to promote democratic practices in the 
region, even while they engage in the difficult work of creating 
durable institutions, reforming the security services, and delivering 
on the promise of human rights for all people. And longstanding allies 
like Thailand and the Philippines continue to work to strengthen their 
democracies so that they can deliver for a new generation.
    The U.S. rebalance to the Asia-Pacific region builds from that 
base, bringing new American commitment and resources to bear in 
supporting the peoples of the Asia-Pacific who are constructing strong 
civil societies and transparent, accountable governments that respect 
and support the rights of all of community members. As former Secretary 
Clinton has said, that is the right thing to do, and it is the smart 
thing to do, and I know that Secretary Kerry, who has long maintained a 
deep personal interest in the region is committed to carrying forward 
the work of leading the rebalance in a way that advances all of the 
interests of the United States, including a strong rule-based global 
order, grounded in respect for human rights, that enables durable 
economic prosperity and peace.
    Within ASEAN, our initial optimism at the formation of the 
Intergovernmental Commission on Human Rights (AICHR) in 2010 has not 
materialized. AICHR's human rights declaration of 2012 did not commit 
the organization or any ASEAN state to actually improve its human 
rights record, nor did it create a meaningful complaints mechanism. We 
continue to engage AICHR and its commissioners on ways to move the 
organization toward becoming a genuine regional human rights protection 
body. And we have made clear that there is an opportunity to revise the 
declaration to bring it in line with internationally recognized 
universal human rights standards.
    In some areas, we see backsliding. In North Korea, religious 
freedom is not a reality. In Vietnam the right to religious freedom, 
which seemed to be improving several years ago, has been stagnant for 
several years. In Burma, a Country of Particular Concern, churches in 
Kachin state are used as military garrisons and centers for sexual 
violence and torture. Too many governments still favor one religion 
over others or pursue policies to thwart religion and belief 
altogether. Even in Indonesia, where in law and practice the right to 
believe is enjoyed, the government does not take effective steps to 
protect members of religious minorities or the right not to believe.
    Workers in East Asia have not enjoyed the benefits they should in 
light of the economic growth globalization has brought to the region, 
but there are some promising opportunities, and we have used these 
openings to advance workers' rights. New laws in Burma have led to the 
registration of over 400 enterprise-level unions and a budding 
institution for dispute resolution, which we support through grants to 
the International Labor Organization; in China, regulations have put in 
place new resources for mediation and conciliation, and we are working 
cooperatively with the Chinese Government to promote these positive 
developments. The United States has made respect for fundamental labor 
rights a key element of negotiations of the Trans-Pacific Partnership. 
Still, workers in the formal sector face challenges to exercising labor 
rights due to a casualization of work and a shift toward short-term or 
temporary contracts. Workers in the informal sector, including in 
construction and domestic work, do not generally receive the same 
protections under labor law, and migrant workers remain marginalized, 
vulnerable to harassment, abuse, exploitation, and human trafficking. 
These are the kinds of challenges we seek to address through both 
policy and programs.
    The State Department and our partners use two primary tools to 
bring about a more democratic and more rights-respecting Asia-Pacific: 
honest dialogue with governments, civil society organizations and 
people; and grassroots, results-oriented programming. From Burma to 
Cambodia, Mongolia to Papua New Guinea, we support dozens of innovative 
programs that increase the effectiveness of local CSOs to improve their 
local environments on their terms. Our programs have trained labor 
activists, brought human rights principles to security forces, 
strengthened election mechanisms, and enabled citizen journalists to 
connect, share, and publish their work. Our rapid response mechanisms 
have enabled us to provide immediate relief and help activists and 
civil society leaders when their governments respond negatively to 
their insisting on having a voice in the decisions that most affect 
their lives. We are working with our international partners to sustain 
and expand the Lifeline NGO Fund and other funds stewarded by DRL so 
that embattled organizations have the resources they need to continue 
their vital work.
    In this constrained funding environment, our programs reap large 
dividends as we support people and organizations that preserve the 
fundamentals of an accountable and rights respecting society. The new 
Under Secretary for Civilian Security, Democracy and Human Rights 
coordinates and integrates the activities and programs of eight 
functional bureaus and offices, addressing the full spectrum of 
``hard'' and ``soft'' security threats that are fundamental to building 
more democratic, secure, stable and just societies that protect and 
empower the people within them. To maximize the use of resources, we 
also closely cooperate with other parts of the USG, such as USAID on 
strengthening civil society, free media, rule of law and human rights 
in the region. In Burma, we just concluded a joint rule of law and 
human rights assessment with USAID, which will allow the USG to have a 
more targeted program approach when it comes to rule of law 
programming.
    The Asia-Pacific is in a period of unprecedented political and 
economic change. The region's people, who have been for too long held 
back by poverty and oppression, are seeking out freedom and democracy 
in unprecedented numbers. But those changes have also highlighted that 
significant work remains to be done. If the United States and its 
partners--likeminded governments, civil society organizations and 
ordinary people--lessen their efforts now, the precious gains made 
toward democracy and human rights will be compromised. Even in the 
region's bona fide democracies, backsliding and regression are still 
very real possibilities. Strong regional initiatives and continued, 
serious engagement with regional goverments will be key to ensuring a 
democratic, secure, and stable Asia-Pacific.
    I thank the chairman, the ranking member, and the subcommittee's 
distinguished members, for the opportunity to testify, and I welcome 
your questions.

    Senator Cardin. Let me thank both of you for your 
testimony. It was by design that we have our first hearing on 
the rebalance to Asia, and it is also by design that our focus 
on this hearing deals with good governance and human rights. I 
say that because there is a concern as to whether that aspect 
of the relationship will get the type of attention and priority 
that it needs.
    Senator Rubio mentioned North Korea. We are all very 
concerned about North Korea. Its nuclear threat is of paramount 
importance and we must deal with that threat. If we are 
successful in dealing with that threat, and I expect that we 
will be, long-term stability depends upon North Korea changing 
its political system to respect the human rights of its 
citizens. It is the worst country as far as respecting the 
rights of its citizens under any international norm, and its 
economic system is starving its own people.
    So, long term, we need to deal with those issues. As 
countries are becoming democratic or transitioning into 
democracy in Asia, it is so important that good governance and 
human rights be a key part of it, because other countries are 
looking at what is happening with countries that have 
transitioned into democratic states.
    Which leads me to my question. This Asian Regional Bureau 
at the State Department is in the bottom half as far as the 
number of staff people and resources that it has. The military 
issues will always have high visibility and priority. How can 
we, this committee, help to make sure that the good governance 
and human rights dimension receives the kind of support and 
attention by staff and by action that we believe is necessary? 
How can we hold you accountable--your statements were 
excellent, and I know that they are heartfelt.
    What can we do as a committee to make sure that good 
governance and human rights gets the type of attention in the 
State Department that it needs to get?
    I have been through this many times, and I have seen many 
agendas set for bilateral meetings that I was extremely 
disappointed that good governance and human rights, if it was 
on the agenda, was a footnote rather than a priority. How can 
we help make this a priority in our State Department 
strategies?
    Mr. Yun. Mr. Chairman, I will have a crack, and then I will 
let my colleague also.
    I think it is really a matter of two things, I would say. 
Foremost, it is a matter of high-level engagement. If you, for 
example, as well as senior officials from U.S. Congress engage 
in these issues, they will pay attention. They will pay 
attention when we have hearings such as these. They will pay 
attention when you travel out to the region and raise these 
issues. And, of course, it is also true that we, in the 
administration, have to do the same. So I would say it is a 
matter of engagement, high-level engagement.
    Second, it is also a matter of resources, because after you 
and senior officials engage, we have to have resources to 
implement them, and there are a variety of ways currently that 
we spend those resources. One, of course, we have some funds 
that come out through USAID in the form of assistance. I would 
say there is a specific pillar called democracy and good 
governance that we tap into to promote civil society, to 
promote parliamentary exchanges, and that is a very, very 
important program for us to preserve.
    Also, it is a matter of having adequate personnel in the 
field. We have in many places a designated human rights 
officer, but not in all places, and in some places we need more 
than one. So for us to have a designated human rights officer 
who interacts with political prisoners, with civil society, is 
very important.
    So I think it is a matter of high-level engagement, 
implementation for us, and also means resources.
    Thank you, sir.
    Senator Cardin. Thank you.
    Mr. Baer.
    Mr. Baer. Thank you. In addition to the kind of 
institutional setup that Joe talked about, I think part of what 
we need to do is that all of us need to keep it clear in our 
approach that human rights is not only one of the outcomes but 
actually part of the strategy. It is part of the comparative 
advantage that we have as a country, anywhere where we are 
engaging, is that our military and our economy are strong, the 
strongest in the world, but they are even stronger because they 
are ours, and people look to us for leadership because of the 
values we represent. So as we push for these changes, this is 
something that we can do that augments our influence in a good 
way and in a way that helps people on the ground, and I think 
we need to keep that in mind.
    I think one of the things that we have tried to do in the 
last few years is really also take advantage of the fact that 
people in the region, if we widen our scope, and I am just 
thinking about the government-to-government conversations where 
it is important to raise these issues, but taking our cue from 
people on the ground, we see increasingly that people in China, 
for example, and Vietnam are themselves discussing issues of 
fairness that they see in their society. They are discussing 
concerns about lack of transparency over everyday issues like 
pollution or food safety, et cetera, and we can take a cue from 
them in raising our concerns with governments and say, you 
know, this isn't just a United States talking point. This is 
something that millions of your own people are talking about, 
and for your own good, you need to figure out a way to deal 
with these conversations about fairness.
    I think with respect to programming, as Joe said, obviously 
our assistance can be vital in many parts around the world to 
supporting civil society, and we believe change comes from 
within and will be sustained from within in that respect, and 
so it is critically important. It is important also that we 
preserve what has been a U.S. tradition of being willing to 
support civil society even where host governments are not 
terribly crazy about that. So we need to be able to do the edgy 
kind of programming that is often needed in the toughest 
places.
    Senator Cardin. Let me ask you specifically to help us on 
the declaration on human rights as to where it needs to be 
strengthened. We don't want to just see a fig leaf effort to 
deal with human rights. We want to see whether we can't 
institutionalize within the region a mechanism that has 
confidence among a significant number of Asian countries that 
are dealing with these challenges.
    So I would like to put special focus on where that needs to 
be strengthened and trying to learn from some good practices as 
to how you can use that to really make progress on human 
rights. While all of the basic internationally recognized human 
rights standards are important, this committee will want to 
have special emphasis placed on the trafficking issues, not 
just origin countries and countries that are transmitting 
individuals, but also destination countries, and we should also 
discuss gender issues. Gender equity issues are a matter that 
has been of direct interest. I will want to follow up on all of 
those specific issues.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Mr. Secretary, let me just begin with this question 
regarding North Korea and China. What is the current state of 
that relationship? Do we believe that the Chinese Government 
and Chinese authorities are reevaluating their relationship 
with North Korea vis-a-vis recent behavior on the part of the 
North Korean Government?
    I have seen some journals speculate that perhaps North 
Korea has outlived its utility in its current form and the way 
they act toward China, and the way they view the world. What is 
the nature of that relationship today, and have we noticed a 
shift on the part of the Chinese Government with regard to 
North Korea over the last few months?
    Mr. Yun. Thank you, Senator Rubio. I think perhaps some of 
the discussion I would hope to take place in a classified 
setting and where we can go into a lot more in-depth on some of 
the information that we can share with you.
    Of course, China has always said, and they are, in fact, 
threatened by increasing rhetoric and also nuclear weapons in 
North Korea. I would say that it has never been in the Chinese 
interest to have a nuclear North Korea. However, the Chinese 
have always stated that they rely on friendly relations with 
North Korea, and they would want the rest of the parties, 
especially the United States, to have a dialogue engagement 
strategy.
    Our view is that North Korea must commit itself to 
denuclearization, which they, in fact, did in 2005 in the joint 
statement that was the heart of the six-party talks. Our view 
is that only on that basis, only if they have credible and 
authentic commitment to denuclearization can we even consider 
engagement.
    As you know, Mr. Chairman and Ranking Member Rubio, this 
has been a problem for decades, and we are working very closely 
with China, as well as other parties. There have been a number 
of phone calls between President Obama and Chinese leadership, 
and Secretary Kerry will be in China in about 2 weeks' time. So 
we will have a good discussion.
    But, Senator Rubio, we would like to give you a more 
comprehensive briefing in a classified setting.
    Thank you.
    Senator Rubio. This question may fall in the same purview, 
but I will ask it anyway. I have noticed in recent speeches a 
reference to something called the ``China Dream.'' The ``China 
Dream,'' of course, is not just a throwaway line. It references 
a book that was published in China a few years ago, I believe, 
by, I believe, an Army general, and the premise of the book is 
basically that the goal of the Chinese Government should be to 
displace the United States. The goal of the book, called the 
``China Dream,'' is that the Chinese Government's goal should 
be to displace the United States as the world's predominant 
both economic and military power.
    So in the framework of that, what is our sense? Obviously, 
I think that a more prosperous China is a positive development, 
and certainly a very positive development for the people of 
China, and I believe personally that it holds potentially great 
promise. On the other hand, I think we have always grappled 
here in the West to fully understand what are China's 
ambitions, stated ambitions for its future vis-a-vis the United 
States, vis-a-vis global dominance and global power.
    What can you share with us with regard to, or what insight 
could you give us? Is that an active debate that is going on 
today among those in China? I know that some in the military in 
China are pushing for a much more nationalistic view. Those 
debates happen in all countries all over the world. But what is 
the state of that internal debate, in your opinion, with 
regards to what these global ambitions are in the big picture?
    Mr. Yun. China, of course, wants to play a global role. 
There is no question about it. We do believe that it should 
play a responsible global role. I believe that the most 
important debate, that is going on in China now, is how should 
a rising China that is a rising power globally, as well as 
regionally, interact with an established power, that is the 
United States? How do they interact with other regional powers?
    Senator Rubio. Do they view us as an established power or a 

declining power?
    Mr. Yun. I would say they view us as an established power. 
In fact, the current President and the U.S. Vice President last 
year in February, Xi Jinping, when he came to Washington, that 
was at the heart of his agenda, to have a discussion on how a 
rising power should interact with an established power.
    We welcome that discussion, Mr. Chairman. We welcome the 
discussion, and these are the discussions we will be having 
with Chinese leadership. On our part, we have stressed to them 
that, yes, we want this discussion, but we are also mindful 
that a rising power has a global responsibility not just in the 
region and beyond, in places like Iran, Syria, and elsewhere.
    One area where we have worked well and consistently over 
the past decades, though, is actually in North Korea, where 
they realize this is a tremendous regional threat, and those 
discussions have been very helpful. But we would, of course, 
want China, which has so much leverage vis-a-vis North Korea, 
to exercise it more.
    Thank you.
    Senator Rubio. Well, I guess that is a starting point for 
my final question for both of you, and that regards the 
repatriation of North Korean refugees. The Chinese Government 
routinely repatriates these refugees despite knowing the 
serious consequences that they face when they are returned to 
North Korea. We have discussed those earlier today. I think 
there is an actual legal problem with this as well. In 
particular, I would like your opinion on the following 
statement I am about to make, and that is that I think these 
forcible repatriations of North Korean refugees from China 
violates their international obligations, and in particular 
under the 1951 convention related to the status of refugees and 
its 1967 protocol.
    I guess my question is what views do we have on that? 
Because if we are talking about a rising power in the region 
who we are encouraging to assume the role that rising powers 
have traditionally assumed in the world when the world has been 
safe and the world has been stable, returning political 
prisoners to a country where they are going to be treated in 
the most horrifying conditions is not necessarily the behavior 
of a country like that and, in fact, violates their existing 
international obligations.
    Have we stated this to them? Have we expressed this in any 
form? What is your opinion in that regard?
    Mr. Yun. We have stated on a number of occasions that 
repatriation of refugees, as well as peoples who are seeking 
asylum for political reasons, should not happen. They should go 
through the internationally acknowledged rules on those. Mr. 
Chairman, we have made these points in regard to North Korea as 
well as other refugee issues that surround the Chinese region. 
I would say this is a very serious problem whether it happens 
in China or in other countries in the region because, as you 
have noted, there has been a flood of refugees coming out and 
they seek----
    Senator Rubio. Have we taken a position that this is in 
violation of their international obligations? Have we taken 
that as an official position?
    Mr. Yun. We have taken that position, that this is a 
violation of international obligations.
    Thank you.
    Senator Cardin. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman, and I would like 
to thank the witnesses for your testimony.
    As long as we are talking about China and North Korea, we 
just witnessed what we believe I think is probably a North 
Korean-directed attack at South Korea in terms of cyber 
security. I do quite honestly appreciate the fact that this 
administration has started conveying to the American public and 
making public some of the threats that China poses, where an 
awful lot of these cyber security issues are emanating from.
    I guess I just want to ask, are we getting a reaction from 
the Chinese Government in terms of the fact that we are raising 
this issue? Have they made any assurances in terms of what they 
are going to do in terms of cracking down on some of the cyber 
threats, some of the industrial espionage that is probably 
coming from China?
    Mr. Yun. Thank you, Senator Johnson. This again, I would 
very much like to give you a classified briefing on this, on 
the exchanges we have had. As you can imagine, this is quite a 
sensitive issue. We have discussed it with our Chinese 
counterparts, and President Obama has raised it.
    This is becoming an increasing issue, which is why we now 
have gone public with so many of our statements on this issue. 
I believe this will also be very much discussed when Secretary 
Kerry is in Beijing in mid-April. So I do look forward to a 
classified briefing on cyber security issues.
    Senator Johnson. OK. Well, I will not go down that path any 
further because I will probably get the same type--and I 
understand that. I respect the sensitivity of that.
    If we are really concerned about human rights, human rights 
violations, information is powerful, and it is not a good sign, 
the result of the international telecom union, that conference 
or meeting in Dubai. We went backward in terms of Internet 
freedom and that free flow and dissemination of information.
    Can either one of you speak to how that is harming our 
efforts, and is there a way to repair the damage or overturn 
the results of Dubai?
    Mr. Baer. Thank you, Senator Johnson. Thank you for your 
attention to Dubai because it was an important meeting, and 
sometimes it seems like there was not enough attention that got 
paid to it. So I appreciate that you are watching so closely.
    As you said, it was a crucial moment. I think there was 
clear organizing on the part of a group of states who want to 
create international standards that would allow them to control 
content online, and that is clearly not in the interest of U.S. 
business or in the interest of human rights and Internet 
freedom.
    I think this is part of our broader project. What we are 
seeing increasingly is that threats to Internet freedom that a 
few years ago was largely a technical exercise on the part of 
governments, putting up filters, hacking into e-mail accounts, 
et cetera, they have moved to a regulatory approach. They have 
not ceased the technical attacks, but they have moved to a 
regulatory approach that is happening both at a local, 
sometimes, and at a national level, and then now at an 
international level, trying to affect international regulations 
that would allow them to limit the openness of the Internet.
    It is something that we are going to have to continue to 
work against in multiple fora. China and Russia have put 
forward, a year and a half ago, a so-called code of conduct 
about the Internet in the first committee in New York, in the 
U.N., and we have made clear that that code of conduct is not 
the right approach because it is all about controlling the 
information rather than preserving an open, interconnected 
Internet that can be a platform for prosperity and growth for 
everyone. It is going to be an ongoing conversation, and we 
will continue to push with others.
    I think one of the things about Dubai, if you look at who 
agreed and who did not, the countries that have benefited from 
the Internet, who represent Internet companies and startups 
that are adding to prosperity, et cetera, all of those 
countries were on the side of preserving openness, by and 
large, and one of the things we have to do is make the case, 
particularly to less developed countries, that if they want to 
enjoy the prosperity that the Internet can be a platform for, 
they have a stake in preserving the openness of the Internet, 
too. It is something we are working to coordinate 
diplomatically so that as we go into fora like Dubai, we are 
not just the United States and the Europeans making the case 
but we have a coalition that includes Kenya and Costa Rica and 
Mongolia and others, so that there is a group of like-minded 
states making the case for openness as we go into more of these 
fora.
    Senator Johnson. Specifically, what do you think the result 
was of Dubai? And I have heard that there is a second step 
where we maybe can roll it back and stop the damage. I mean, 
can you speak specifically to your evaluation of what happened 
in Dubai and what we can do?
    Mr. Baer. I think that Dubai was--well, first of all, there 
could have been a very bad result of Dubai that would have 
placed the Internet officially under an intergovernmental body 
without input from the private sector and civil society, et 
cetera, and that did not happen. I think the conversation in 
Dubai was multifaceted. We had a huge delegation, et cetera, 
that had representatives from businesses and civil society. We 
made the case for openness. Some states lined up behind a 
convention that would have been damaging for the future of the 
Internet.
    There is an ongoing conversation. There will be an ongoing 
conversation. We have the opportunity to make the case for 
openness going forward, but it is going to be a heavy lift and 
we need to stay focused on it.
    Senator Johnson. OK. But you are making a very concerted 
effort to make sure that we go into the next round and try and 
roll this thing back. And is there a pretty good chance that we 
can roll back the damage, or are we on an inevitable path here 
now?
    Mr. Baer. In many of the areas that I work in for human 
rights, the overlap between the business case and the human 
rights case, while I believe it is always there, is not as 
obviously there as in this one, and I think that gives me some 
degree of optimism that we will be able to make the case. In 
many cases, it is the fact that this is technical stuff that a 
lot of governments have not had the opportunity to come up to 
speed on, and that we need to figure out how to break it down 
and make sure that the implications of bad decisions, bad 
regulations are fully clear to the governments that are 
participating, and I think that we do have a chance, and 
certainly there are a good number of us who are very focused on 
what is at stake here, and we will do our best to make sure 
that we are, at each turn, making sure that we tilt the balance 
toward openness.
    Senator Johnson. OK. Well, thank you very much.
    Thank you, Mr. Chairman.
    Senator Cardin. Secretary Yun, you mentioned the foreign 
international development assistance and its role in dealing 
with good governance and human rights. I would like to pursue 
that further, not necessarily in response to a specific 
question to be answered today but how we can weigh in on the 
use of those tools to promote more effectively good governance 
in the countries under the jurisdiction of your portfolio in 
this subcommittee.
    We know that we have two countries that are a part of the 
Millennium Challenge grants, and in Indonesia that is being 
used very aggressively to deal with the issue of budget 
accountability, which is certainly an important subject. We 
have other tools available in international development 
assistance, and we want to make sure that they are used 
effectively. We have very tight dollars. We know that. This 
subcommittee wants to advocate for the use of the resources in 
the most effective way as possible to advance U.S. interests.
    So if you could help us sort through the priorities in that 
area, I think that would be helpful. If you have a comment 
about that now, fine, but I would like this to be a working 
relationship as to how we can better fine-tune the use of that 
tool. We work very closely with the Appropriations Committee. 
Senator Leahy, I know, is very interested in this area also. So 
we would try to work with you to use this tool more effectively 
in carrying out good governance and human rights.
    Mr. Yun. We would very much like to do that. I think that 
is a great idea. As you mentioned, we have USAID funds, as well 
as some Millennium Challenge accounts. I would say on the 
Millennium Challenge, you mentioned some of the budget issues. 
On the Philippines side, there is also one that aims to have 
essentially tax collection more clear. They are not collecting 
enough taxes. According to their tax rate, there should be 
more. So there is a lot of underreporting going on. So on those 
two, we are happy to work with you, sir, and also on overall 
democracy and governance side of our USAID funds.
    Senator Cardin. And there is one other aspect. We had a 
meeting with Administrator Shah of USAID this week, and he is 
promoting more direct contact, people-to-people business by 
American individuals, American businesses, American 
universities. In Asia, that is particularly valuable. As we 
pointed out, the market is expanding for American businesses to 
work with us to help in good governance and human rights 
development. It also means better markets for their products as 
they move down the road.
    So the people-to-people programs are also of great 
interest. As we can leverage all the tools to get more 
involvement, I think it would be helpful in carrying out our 
objectives. I welcome your thoughts in those areas.
    Senator Rubio.
    Senator Rubio. Before we leave, I just wanted to talk about 
the state of progress with regards to Burma and what is going 
on there. It is a very interesting case as we see this kind of 
transition. I think it actually could potentially, one day in 
the future, serve as a model to some other authoritarian 
countries who we may want to examine changing relationships 
with, even when they change their model of governance.
    What is the status of that? How is that going in terms of 
the carrot-and-stick approach where incremental changes in 
governance and human rights space is being met with incremental 
changes, potentially or supposedly incremental changes in our 
policy toward them? How would you judge the progress of that? 
Are we moving forward? Are we moving backward? Has there been a 
lull in action? It does not get the attention it deserves, but 
I would love to hear a status report.
    Mr. Yun. Thank you, Senator Rubio. I would say we are very 
optimistic, and the progress that has been made over the past 2 
years has been more than anyone would have expected. I don't 
want to go through a list of everything, but even in our last 
round of discussions with the Burmese officials, they have made 
it clear that they are going to account for the remaining 
political prisoners. They have already released quite a lot, 
and they will account for that.
    We have also had in-depth discussions with Aung San Suu 
Kyi, the Nobel laureate, and she is pleased, and she is active. 
She is a member of their national assembly and working quite 
well as head of one of the committees in the national assembly.
    Still, there are some serious challenges, and one of them 
is the difficulty between the government and ethnic minorities. 
There are two ethnic minority groups that are posing huge, 
enormous challenges. One is the continuing fight with the 
Kachins up in the north, on China's border. The other one is 
the Rohingyas down in the south. So I think until the ethnic 
situation settles down, I think it will be very difficult for 
the government as a whole.
    So we are expanding in many types of engagements. We have 
increased our development assistance there. We have begun very 
small steps on military-to-military exchanges, and also we will 
be doing a lot more in terms of general exchanges, having their 
students over here, and we would like to invite their 
parliamentarians over here to discuss their role with our 
parliamentarians.
    So I would say we are very optimistic. Regarding your 
thought, Senator Rubio, of this as a demonstration project, I 
think that is very important. We talk a lot about North Korea, 
and in some sense it is a demonstration project for North Korea 
if they are willing to change. We do not have hostile intent. 
If they are willing to change, we will change our posture and 
our policy, and we will help them get there.
    Thank you.
    Mr. Baer. If I could just add, I think I agree with what 
Joe has said, and I think what has been most striking is at a 
macrolevel the military has been in control for so long there 
that as they make this transition, there are an enormous number 
of laws that they need to change, and the good news is that 
they have started to change those laws. There is a great legal 
reform project that lies ahead of them, but they have made 
initial changes to some of the most crucial laws.
    There is institution-building that has to happen. There 
need to be institutions that are able to take on the role that 
the military has played for so long. So there is a real massive 
project that is going on. I think as we look, as the chairman 
said, to 2015 and the elections there, there will be bumps in 
the road but we are hopeful that 2015, as a kind of next major 
milestone, that in the lead-up to those elections we will see 
something different than in 2010. We will see free and fair 
campaigning. We will see open and free expression. We will see 
people able to assemble, et cetera, and I think we will 
continue to stay engaged with them going forward.
    My former boss, Secretary Posner, testified last month 
about the progress here, and I know he has met with you, 
Senator Cardin. As Joe said, we will continue to work together, 
and this is one of the places where Joe and I have worked most 
closely.
    Senator Rubio. My last question is about South Korea. There 
is all the attention to the north and not enough, I guess, to 
the south. In so many ways, we like to hold up South Korea as 
an example of progress. I mean, a country that was at one time 
a recipient of aid is now a donor. It is a country we now have 
a robust trade relationship with and really is a graphic 
example in that famous Google Earth picture of North Korea and 
South Korea where one has lights and trees and the other 
doesn't. It is just a reminder of two very different systems, 
the same people living under two different governments, heading 
in two very different directions.
    I am curious about the mood in South Korea given all the 
recent events. There is some reporting about--in essence, I 
think the relationship is at a critical point, is it not, where 
they look at us for continued assurance of this military 
stability, continued assurance of this economic relationship 
that allows them to continue to progress? I mean, one thing is 
to analyze what is going on in the peninsula from abroad. 
Another thing is to be living there where every single day you 
are being threatened with these sort of attacks and you really 
do not have the capabilities to directly respond without help 
from others.
    What is the political mood given the recent elections? What 
is the direction of the South Korea Government? What is their 
mindset, not just vis-a-vis North Korea, but vis-a-vis the 
United States commitment to them and to the region?
    Mr. Yun. I think you said it just right, sir. I think South 
Korea is a case in point of what openness can achieve in terms 
of both economic strength and the freedoms that go with it. As 
you know, we have had a very, very strong alliance 
relationship, perhaps second to none in the world, with South 
Korea, and a big part of that is what we call extended 
deterrence. That is, we are committed to defending South Korea 
against all external attacks, and our commitment is there 
through about 29,000 troops who are still stationed in South 
Korea. So there is no uncertainty with regards to our 
commitment to defend South Korea, and I believe that has gotten 
through completely to South Koreans. If you look at the polling 
data and so on, there is a very strong support for the 
alliance. There is a very strong relationship with the United 
States.
    Senator Rubio, we will soon have very high-level engagement 
with South Korea. The newly elected President of South Korea, 
Park Geun-hye, will be visiting Washington in May and, of 
course, Secretary Kerry will be going to Seoul in early April. 
So we have an enormous amount of consultation at every level, 
and please be assured that South Koreans completely understand 
our commitment, and they rely on it, and we are, of course, 
totally committed.
    Thank you.
    Senator Cardin. Senator Udall.
    Senator Udall. Thank you, Chairman Cardin, and thank you 
for holding this hearing, I think a very good hearing on human 
rights and governance over in Asia. I wanted to focus a little 
bit on--and thank you both for your service, I really 
appreciate it--focus a little bit on Vietnam, Cambodia, and 
Laos. Are human rights conditions in those three countries 
worsening? What approach should the United States take toward 
these countries in light of reports that freedom of expression 
and the role of the NGOs are being curtailed?
    Mr. Baer. Thank you, Senator, for calling attention to the 
human rights issues in these three countries. I think that 
certainly in Vietnam we have been disappointed in recent years 
to see backsliding, particularly on freedom of expression 
issues. I mentioned in my testimony the approach to the 
Internet. While it has great penetration in Vietnam and they 
are rightly proud of that, people are being prosecuted for what 
they say online under really draconian national security laws, 
et cetera, and that is an issue that we continue to raise both 
in our human rights dialogue with the Vietnamese as well as in 
other bilateral engagements.
    In Cambodia, you mentioned civil society.
    Senator Udall. Is that worsening even though we have put a 
push on that in the last----
    Mr. Baer. I would say it has not gotten better. I mean, we 
were seeing some progress in religious freedom issues in 
Vietnam a few years ago, and that too seems to have stagnated. 
It is unfortunate, and to be honest, I think the government 
needs to come around to seeing that the Internet penetration 
that they are proud of is not fully valuable without having 
people be able to exchange ideas and say, hey, I have this idea 
for a company, or post a song on YouTube, which somebody has 
been prosecuted for, without being worried that they are going 
to get thrown in jail.
    So we will continue to make the case firmly to them, not 
only in the context of the human rights dialogue but also in 
the context of TPP negotiations. We talk about Internet issues, 
we talk about labor issues and concerns over labor conditions, 
et cetera. And so we have a range of conversations with the 
government. It is a strong relationship in many ways, and we 
can raise this in a number of different conversations and 
highlight our concerns.
    I think your drawing attention to the condition of civil 
society, I think that is something that, around the world, 
there has been in the last 10 years this kind of global trend 
of governments realizing that civil society can, in fact, hold 
them accountable, and many of them deciding that they do not 
want to be held accountable, and therefore taking both legal 
and extralegal measures to curtail the activities of civil 
society.
    There was an NGO law that was proposed in Cambodia a few 
years ago. Cambodian civil society rallied together to campaign 
against it. We lent a strong hand of support. Secretary Clinton 
herself was engaged several times, and Hun Sen eventually 
announced that he was going to shelve that pending consensus 
from civil society.
    But this is something that we are working on in many 
countries. In Burma right now, we are encouraging them to 
revise an old civil society law that was from the SLORC era 
that bans organizations larger than five people and things like 
this. So this is a kind of regional trend.
    In Laos, I was there last month where we raised concerns. 
If you follow Laos, you may know that one of the kind of key 
figures in civil society in Laos, which is really quite nascent 
in many ways, Sombath Somphone, disappeared in December, and 
his case has not turned up any new information. For some time 
now, the government has told us that they are investigating, 
but I went there to deliver the message that we want to know 
more about what they are finding or not finding. It has really 
had a chilling effect on the broader civil society in Laos 
because this was a guy who was not seen as a particularly 
radical guy. He was friends with a lot of folks in the 
government. He worked with them, et cetera. So the fact that he 
could suffer consequences was of grave concern to everybody on 
the ground in Vientiane and beyond.
    So I think this will remain a set of issues that we will 
have to continue to raise in all three of the countries that 
you listed.
    Mr. Yun. I very much agree with Dan's characterization, but 
I would say that our rebalance, there is also a bit of 
rebalance within Asia, and that is we are also concentrating 
substantially more than we did in Southeast Asia. These are 
countries we believe that we have enormous economic interests. 
They are the fastest growing region. So we put in a lot of 
effort, especially in Southeast Asia, and I think the chairman 
mentioned, for example, the ASEAN Declaration on Human Rights. 
While the substance of the Declaration on Human Rights is not 
what we would wish, I would say that Southeast Asians doing it 
is an important fact. They have never agreed among all of them 
what are their human rights and that they ought to have common 
human rights goals.
    So I agree with you, the substance is lacking, but at the 
same time doing it is important.
    Also for us, I believe when have a forum like the ASEAN 
East Asian summit, that is multilateral, just as the chairman 
raised the OSCE, for example. These become forum where we can 
share and raise issues. And frankly, human rights is one of the 
more difficult issues we raise with our partners, but we must 
raise them, and having this multilateral avenue is a great, 
great help.
    Senator Udall. Thank you very much. Thanks.
    Senator Cardin. It is interesting to point out that my two 
colleagues that are here are also commissioners on the Helsinki 
Commission. So we have a heavy dose of the Helsinki Commission 
here on the Asian subcommittee.
    With my colleagues' indulgence, I want to just put one more 
quick question forward. Dealing with good governance, 
particularly in Asia as it relates to the military. The 
military has such a dominant role that they can play a key 
position as far as reforms toward democracy. Can you just give 
me quickly your status update as to what reforms are taking 
place within the military in this region that we should be 
concerned about or encourage?
    Mr. Yun. I think this points to the importance of a mil-mil 
relationship. We have, for example, the Pacific Command that 
visits there often, as well as relationship with the Pentagon. 
When these guys go out, when our defense experts and uniformed 
officers go out, they can really talk to them soldier to 
soldier, and I have seen that. For them it is really, No. 1, 
how to respect human rights. When you do an operation, how do 
you make sure civilians--damage to civilian populations is 
minimized? What should be the rules of operation? That, I 
believe, is where our own soldiers can really point the way.
    Second is the good governance side, as you mentioned. How 
much military role should there be? And there have been, of 
course, a lot of reforms, and as I mentioned from the 
beginning, you can see it. Really, the number of military coups 
that are happening in the region are way, way down. In fact, I 
do not really remember the last one. Maybe it was Fiji. So we 
are seeing far less military intervention than we ever did, 
which is very, very good news. But we still have situations, 
the prime example being Burma, where 25 percent of their 
legislature is appointed by the military. So it is not a 
sustainable long-term situation.
    We had a similar situation in Indonesia. They got rid of it 
some time ago.
    And then, of course, there is also the business side. In 
many of these countries, the military runs and operates their 
businesses, and that is not a good situation either.
    Mr. Baer. If I may, I think Joe is absolutely right. I 
mean, you are right to focus on the reform aspect, and the 
toughest aspects of reform are where the military is involved 
in government and in business, and when it is involved in both, 
it is particularly tough, and there is no easy recipe for 
persuading a bunch of guys who have had a lot of power and 
gotten a lot of money for a long time to give that up. It is 
predictably challenging.
    I think our own military is our best messenger in many 
respects on this. We brought the commander of the Army in the 
Pacific, Frank Wiercinski, to the Burma human rights dialogue 
that we held last October, and I got to watch him engage with 
his counterparts and talk about what civilian control meant to 
him and why he appreciated it, and why it was part of being a 
professional 21st-century military. Having that come from a guy 
with three stars on his shoulder and deliver that message, it 
was certainly more powerful than had it come from me, but even 
more valuable than had it come from any civilian.
    I think that one of the things I saw in General Wiercinski 
the week before last and one of the things we talked about was 
the ability, the opportunities that we have to work together 
more often. He actually went to Laos right before me and we had 
communicated on that trip. So making sure that we are 
delivering one message as a government in terms of the 
importance not just to our civilian side of civilian leadership 
but to our military side of being able to work with 
professional forces that are under civilian control in the 
region.
    Senator Cardin. Well, I appreciate that answer. I have 
noticed under the Obama administration, under Secretary Clinton 
and now Secretary Kerry, a much closer relationship between 
State and Defense. Engaging the Pacific Command on these issues 
I think makes a great deal of sense, and we will follow up from 
our committee with Pacific Command on some of these issues as 
well.
    So, thank you both for your testimony. We appreciate it 
very much.
    We will now go to our second panel, and let me welcome Mr. 
Steven Rood, who is the country director of the Philippines and 
Pacific Island Nations at Asia Foundation. As regional advisor 
for local governance, he helps build local government 
decentralization and municipal government programs throughout 
the region.
    Mr. Rood, I saw in your background something I found to be 
pretty fascinating. You are the only foreign faculty member 
with tenure at the University of the Philippines. I take it you 
accomplished that recognizing that sequestration could have a 
problem for your U.S. support. That was well thought out and 
well planned.
    We are also pleased to welcome Ellen Bork. Ms. Bork is the 
director of Democracy and Human Rights at the Foreign Policy 
Initiative. Before FPI, Ellen worked at Freedom House, where 
she directed projects assisting activists and dissidents around 
the world.
    Let me just offer our condolences on the loss of your dad, 
Judge Bork, a distinguished jurist. Our deepest condolences. He 
had incredible accomplishments in the legal field.
    Both of you, we are pleased to have you here, and your 
statements will be made part of our record. You may proceed as 
you wish, starting first with Mr. Rood.

STATEMENT OF STEVEN ROOD, COUNTRY FIELD REPRESENTATIVE FOR THE 
 PHILIPPINES AND PACIFIC ISLAND NATIONS, THE ASIA FOUNDATION, 
                       SAN FRANCISCO, CA

    Mr. Rood. Thank you, Mr. Chairman, Ranking Member, and 
members of the subcommittee. I am pleased to be asked to 
testify on behalf of my organization, the Asia Foundation, on 
the issues of democracy and human rights in Asia. Thank you for 
the invitation.
    The Asia Foundation is a private, nonprofit organization 
that was founded nearly 60 years ago. Through its programs, the 
foundation has helped build democratic institutions, reform 
economies, support civil society, and empower women throughout 
Asia. These investments in local partnerships have helped to 
support more politically and economically stable Asian 
countries that are important and reliable allies and partners 
for the United States.
    The foundation has 17 country offices in Asia. I head our 
Philippines office, where we opened our doors in 1954. 
Throughout the region, the foundation works with hundreds of 
Asian partner organizations and identifies reform-minded 
individuals and future leaders. The foundation also facilitates 
regional exchanges to share experiences among Asian countries, 
recognizing both the diversity and the local context of shared 
development challenges.
    For those of us who have worked in Asia for a long time, 
increased attention to the region is always welcome. The 
rebalance to Asia policy will help reinforce U.S. commitments 
on all fronts.
    Despite the economic and political advances of the past 
decade, many countries in Asia continue to face challenges. 
Even countries which have made important progress continue to 
struggle in delivering on democracy's promise on a daily basis. 
Assistance programs have contributed to Asia's democratic 
development and economic well-being and represent an important 
aspect of American soft power. It is the United States that has 
led the way through its sustained commitment to the expansion 
of democracy and human rights.
    This is not true of all donors, and the donor world is 
changing. In addition to the traditional bilateral donors such 
as USAID, and multilateral organizations such as the World 
Bank, there are a wide range of emerging Asian donors who look 
at development in an entirely different manner. Since 2001, the 
foundation has held a series of donor dialogues with these 
emerging donors from Korea, Thailand, China, Indonesia, 
Malaysia, Singapore, and India to share their views on 
development cooperation.
    What we are learning is that the approaches, focus, and 
effectiveness of providing assistance differ between the 
emerging and the traditional donors. As countries turn to these 
new donors, who often offer unconditional aid, there is concern 
that the influence of established donors, particularly on 
sensitive topics, might be reduced. Nongovernmental 
organizations represent important partners in this context. The 
Asia Foundation's engagement in Asia might be helpful in 
assessing the effectiveness of democracy and human rights 
programs.
    Our approach examines the interrelated interests of 
government, the private sector, and the NGO communities, and 
focuses on problem identification, local knowledge, and 
flexible mechanisms to achieve successful outcomes. Examples of 
programs include countertrafficking in Vietnam, where we work 
with both civil society and government to improve standards for 
the treatment of victims, and a program in the Philippines, 
with USAID funding, which has resulted in a remarkable increase 
in land title registration for tens of thousands of Filipinos 
who otherwise would have no rights to the public land that they 
had lived on and in some cases paid taxes on for decades. 
Further examples are included in my written testimony.
    These programs rely on an ability to work with all 
stakeholders involved in the reform process. Where space might 
be shrinking for civil society, it is critical to try to build 
local organizational capacity and cooperation. Preserving an 
enabling environment for civil society, interacting with 
governments to the extent possible, and accepting the 
inevitable twists and turns of democratic development can 
require patience and new modes of thinking.
    The foundation defines civil society broadly. It includes 
human rights and women's rights groups, health and education 
NGOs, but also business and trade associations, bar 
associations, women's groups and religious organizations, 
journalists and media groups, and civic and charitable 
organizations of all kinds. These groups all have an important 
role to play and help to expand the space for reform.
    There are many examples of how civil society has played a 
large role in democratic development, often with U.S. 
assistance through the Asia Foundation. For instance, in 
countries like Indonesia, it was civil society and religious 
organizations working together under the Suharto regime which 
provided not only service delivery but, in the post-1999 era, 
the creative ideas and the basis for legal reforms, women's 
rights, human rights advocacy, countercorruption and watchdog 
functions, and important economic reforms. Many were supported 
by the Asia Foundation with USAID funding.
    The Philippines is another good case in point where, under 
the Marcos era, civil society actors were key in the country's 
political and economic development, and remain so to this day. 
We see real opportunities for the United States to support 
democracy and human rights advancements in the rebalancing 
toward Asia by making a long-term commitment to the region in 
terms of investing in relationships and resources, 
understanding the uncertain path toward democracy and a 
willingness to continue pressing forward, and building 
relationships with other donors, including Asian donors, to 
coordinate our mutually beneficial goals and objectives.
    The Asia Foundation's experience in Asia shows that such 
long-term commitments, local partnerships and relationships 
with other donors can advance democracy and the protection of 
human rights in the region, thereby advancing the mutual 
interests of the United States and Asia.
    Thank you again for the opportunity to testify before the 
subcommittee, and I am pleased to respond to questions.
    [The prepared statement of Mr. Rood follows:]

                   Prepared Statement of Steven Rood

    Mr. Chairman, Ranking Member and members of the subcommittee, I am 
pleased to be asked to testify on behalf of my organization, The Asia 
Foundation, on the issue of democracy and human rights in Asia. Thank 
you for the invitation to speak before the subcommittee on a very 
important topic.
    The Asia Foundation is a private, nonprofit organization that was 
founded nearly 60 years ago. Through its programs, the Foundation has 
made sustained investments to build democratic institutions, reform 
economies, support civil society capacity, and empower women throughout 
Asia. These investments have helped to support more politically and 
economically stable countries throughout the region that are important 
and reliable allies and partners for the United States.
    The Foundation has 17 country offices in Asia, and works with 
hundreds of established and emerging Asian partner organizations and 
identifies reform-minded individuals and future leaders. We accomplish 
this through grants to local organizations and through our staff and 
experts on the ground across Asia. The Foundation's grantees can be 
found throughout the public and private sectors in Asia, and are 
leaders of government, industry, and a diverse civil society. Over our 
long history in Asia, at the heart of The Asia Foundation's mission has 
been advancing democratic institutions and expanding civil society to 
protect human rights, improve governance, and promote economic reform 
and growth.
    For those of us who have worked in Asia for a long time, increased 
attention to the region is always welcome. The ``Rebalance to Asia'' 
will help to reinforce U.S. commitment to the region on all fronts.
    Despite the economic and political advances of the last decade, 
many countries in Asia continue to face challenges in democracy and 
governance, adherence to the rule of law, elimination of corruption, 
decreasing religious tolerance, political volatility and, in some 
cases, armed conflict. In fact, even many countries who have made 
important progress in democracy continue to struggle in making 
democracy meaningful beyond periodic elections, and delivering on 
democracy's promise on a daily basis.
    In this context, assistance programs have made an important 
contribution toward Asia's democratic development and economic well-
being, and can continue to do so. But there have been concerns over the 
impact of these programs. How do we know they are effective? How do we 
measure success? This is a challenge not only for the United States but 
for other donors as well, and there are growing efforts by donors to 
coordinate and harmonize their programs in order to avoid duplication 
and increase impact. The extent to which U.S. programs are coordinated 
with other donors always depends on the scope and focus of the 
assistance, but there is clearly more of an effort in this direction 
and progress is being made to refine and develop measures for 
evaluation.
    The development cooperation landscape is changing. In addition to 
the traditional donors such as USAID, there are a wide range of 
emerging Asian donors who look at development in an entirely different 
way. Asian countries have emerged as game changers in the aid arena, 
challenging traditional notions of aid, reshaping global aid 
architecture, and placing new challenges on the global development 
agenda. As countries turn to these new donors, who often offer 
unconditioned aid, there is concern that the influence of established 
donors, particularly on controversial topics, might be reduced.
    Recognizing the importance of these new actors to future 
development policy and practice, since 2011 the Foundation has provided 
a platform for emerging donors from Thailand, Korea, China, Indonesia, 
Malaysia, Singapore, and India to share their views on development 
cooperation and international development challenges alongside 
traditional donors. Following the Foundation's side event on Asian 
Approaches to Development Cooperation at the High Level Forum for Aid 
Effectiveness in Busan, Korea, in 2011, the Foundation has held several 
dialogues in Asia on Asian perspectives on international development 
cooperation and strategies on issues such as pro-poor growth and 
climate. We have also expanded our work facilitating south-south 
cooperation between emerging donors and other countries in Asia on 
issues such as disaster risk management.
    This and similar engagement also provides an opportunity for the 
United States to work with countries like Thailand, as emerging donors 
in their own right, but who continue to face certain democracy and 
governance challenges domestically, as well as issues that are rooted 
in broader East Asian regional issues like economic integration and 
environment. This could also be an important model for partnership in 
Burma and other East Asian countries.
    What we are learning from this series is that the modalities, 
focus, and effectiveness of providing assistance differ between the 
emerging and traditional donors. While it is true that the United 
States has sustained a long-term commitment to the expansion of 
democracy, human rights, women's rights and civil society, this is not 
true of all donors. To date, the focus of these new donors has been 
more on traditional infrastructure, economic growth, and development.
    At the same time, nongovernmental organizations like The Asia 
Foundation are able to contribute to the protection of women's rights, 
advance the rule of law, promote greater public security, expand 
transparency, and counter corruption through work with both government 
and local civil society partners. Effective programs require committed 
partners and adequate and stable funding, as well as the right 
mechanism and approach in executing the assistance.
    The Asia Foundation's approach takes into consideration both 
political and economic factors in looking at the incentives for reform, 
and has a few dimensions that might prove helpful in assessing the 
effectiveness of programs and their linkages to progress on democracy, 
governance, and human rights issues. Our holistic approach looks at the 
interrelated interests of government, the private sector, and the NGO 
communities to identify whose interests are most served by the desired 
changes. Then, by working with local partners, the Foundation acts as 
an honest broker to support strategic inputs, whether they are 
technical assessments, training, strategic design, or even seed funding 
for pilot projects, and support and enable local partners to take the 
lead in achieving more sustainable solutions to national and regional 
challenges. In this context, focused problem identification, local 
knowledge, and flexible mechanisms contribute to successful outcomes. 
In addition to country specific investments, the Foundation also 
facilitates regional exchanges to share experiences among Asian 
countries and local partners in many of the countries where we work.
    In the Philippines for example, one success that touched on 
increased transparency, countercorruption and increased rights for 
citizens relates to land titling. The right to land title and therefore 
access to credit is tremendously important to millions of Filipinos. 
Many people have lived on their land for decades, have built homes, 
opened businesses and even paid taxes on the land but don't have the 
documentation to pass along to their children, to sell it or use it as 
collateral to get a bank loan, or sleep at night knowing that their 
property rights are secure. Property rights reform in the Philippines, 
as outlined in our recent book ``Built on Dreams, Grounded in Reality'' 
(2012), was the result of an approach that consisted of analyzing the 
problem, pursuing a strategy that identified the incentives and 
motivation for reform, and developing an action plan. With USAID 
assistance, The Asia Foundation and its local partner, the Foundation 
for Economic Freedom designed a program that helped to pass the 
Residential Free Patent Act of 2010, which increased the registration 
of land titles 1,420 percent in 2011, the first full year of 
implementation, from approximately 6,600 in 2010 to 55,300 in 2011, and 
65,600 in 2012.
    In Vietnam, working with local partners, programs to support women 
victims of trafficking have been highly successful. The Foundation just 
completed a 3-year antitrafficking program that delivered safe 
migration education to over 62,000 people. We provided technical 
assistance and held extensive consultations with NGOs and other service 
providers working with trafficking victims to provide inputs into the 
government's development of the National Minimum Standards for the 
treatment of victims of trafficking.
    In Thailand, there is a continued need to enforce human rights 
protections. The Foundation's Department of State funded forensics 
project advances human rights protection by strengthening the capacity 
of formal justice agencies, forensic pathologists, university medical 
faculties, human rights NGOs and human rights lawyers associations, and 
the print and broadcast media to apply forensic investigative 
techniques. The same approach has been utilized in the Philippines, 
again with funding from the Department of State, to help end a culture 
of impunity by going beyond reliance on testimony to scientific 
evidence.
    In the context where space might be shrinking for civil society, it 
is important to try to identify effective ways to achieve increased 
public participation and citizen involvement. In such restrictive 
environments, it is critical to try to support local organizations to 
have the space to continue to do their work and carry out dialogues 
about the issues that matter to them and to society. Civil society in 
these contexts are also quite weak and atomized, so building their 
organizational capacity is important for the long term, as well as an 
opportunity for different groups within civil society to work together. 
Preserving an enabling environment for civil society, interacting with 
governments to the extent possible, and accepting the inevitable twists 
and turns of democratic development can require patience and new modes 
of thinking.
    One way is to define civil society broadly. We are not only talking 
about political parties and advocacy groups, just as we are not 
defining democratic progress only by free and fair elections. The 
Foundation defines civil society to include not only these groups, but 
also business and trade associations, bar associations, women's groups, 
religious organizations, journalists and media groups, health and 
education NGOs, and civic and charitable organizations of all kinds. 
These groups all have an important role to play and help to expand the 
space for reform. We have seen this unfold over time throughout Asia. 
The Foundation, often with U.S. Government funding and support, has 
invested significantly in civil society organizations, broadly defined, 
building their capacity and identifying individuals who are working 
toward reform.
    For instance, in the post-World-War-II era, the Asia Foundation's 
programs in countries where democratic traditions were weak, like 
Korea, Japan, and Taiwan, supported a wide range of civil society 
groups. They provided education, health, and other important social 
services, as well as advocacy and the generation of new ideas, and thus 
became important contributors to economic development and growth. 
Today, these countries stand as models of stability and democracy in 
the region, bolstered by increased public participation and expanded 
opportunities made possible through the inclusion of civil society 
organizations in policymaking.
    More recently in countries like Indonesia, it was civil society and 
religious organizations working together under the Suharto regime, 
which provided not only service delivery, but in the post-1999 era, the 
creative ideas and basis for legal reforms, women's rights, human 
rights advocacy, counter corruption and watch dog functions, and 
important economic reforms which drew on broad consultations with the 
public. We should continue to take stock of the fruit of the long-term 
U.S. investments--many in leadership in post-reform institutions are 
people with whom the Foundation partnered with in the past as part of 
Foundation civil society partnerships with USAID funding. For instance, 
this includes leadership in the Election Commission, Corruption 
Eradication Commission, Committee for Free Information, Press Council 
(which existed in New Order but revamped post-reformasi), Judicial 
Commission, National Committee of Human Rights, and National Commission 
on Women's Rights.
    The Philippines is another good case in point, where under the 
Marcos era, civil society became an important contributor to the 
country's political and economic development and remains so to this 
day. Civil society organizations have contributed to more transparency 
and accountability in governance, expanded press freedom shone the 
light on human rights abuses, and worked to develop political will for 
economic reform.
    Another example is in Thailand, where the Foundation supported the 
1997 People's Constitution, the first of its kind to be informed by the 
inputs of women and other citizen stakeholders. We also provided 
followup support for public institutions like the Constitutional and 
Administrative Courts that were created under the Constitution and 
continue today.
    In Vietnam, where the Foundation works with a broad range of civil 
society, we seeded an initiative with the Vietnam Chamber of Commerce 
and Industry. USAID viewed the program as important, and has continued 
to support the Provincial Competitiveness Index (PCI), a survey of 
small and medium enterprises. PCI was just released for the 8th time to 
tremendous public and media interest in Vietnam, having established 
itself as a respected national instrument measuring provincial economic 
governance and allowing the voice of the private sector to reach 
policymakers.
    We see real opportunities for the United States in the rebalancing 
toward Asia in:
          (1) Making a long-term commitment to the region, in terms of 
        relationships and resources;
          (2) Understanding of the uncertain path toward democracy, and 
        a commitment to continue pressing forward; and
          (3) Building relationships with other donors, including Asian 
        donors, in coordinating on mutually beneficial goals and 
        objectives.

    The Asia Foundation's experience in Asia shows that such long-term 
commitments, local partnerships and relationships with other donors can 
advance democracy and protection of human rights in the region, thereby 
advancing the mutual interests of the United States and Asia.
    Thank you again for the opportunity to testify before the 
subcommittee and I am pleased to respond to questions.

    Senator Cardin. Thank you, Mr. Rood.
    Ms. Bork.

STATEMENT OF ELLEN BORK, DIRECTOR, DEMOCRACY AND HUMAN RIGHTS, 
         THE FOREIGN POLICY INITIATIVE, WASHINGTON, DC

    Ms. Bork. Thank you, Mr. Chairman, and I would like to 
thank the committee for inviting me today. It brings back lots 
of good memories to be in the committee room where I worked as 
a staffer for Senator Helms and Senator Thomas in the late 
1990s. I would like to thank you also for mentioning my dad. 
Your condolences are greatly appreciated. Thank you.
    You convened this hearing to address this democracy issue 
and its role in the rebalance or the pivot, which President 
Obama launched in late 2011. I know a lot of military experts 
have criticized whether it is adequately resourced on military 
terms. From a democracy and human rights point of view, I think 
the jury is out, which is not to say that the administration 
has not laid a very strong rhetorical case. President Obama 
himself, when he initiated it in Canberra, really spoke very 
powerfully of the Asian region's democracy struggles and linked 
his leadership to pursuing democracy, freedom, and prosperity. 
Secretary Clinton also did the same. However, I noticed that 
National Security Advisor Thomas Donilon gave a little bit less 
emphasis to that recently when he spoke; I think it was last 
week.
    This comes against a backdrop of a record on support for 
democracy and human rights that is mixed at best from the Obama 
administration. There are a number of disappointments to 
mention, the response to the Iranian elections and the Green 
Movement, the rise of authoritarian regimes in Russia and 
Venezuela, and later on I will mention also China.
    I certainly want to acknowledge Burma as a very positive 
development, and that is very exciting to all of us. I am happy 
to give credit wherever credit is due, mostly, of course, to 
the Burmese people. In the last couple of years, Aung San Suu 
Kyi has been able to emerge from house arrest to lead her party 
in sweeping by-elections. President Thein Sein, a former 
general, certainly gives very good indications of being 
interested in long-term reform. At the same time, there is a 
lot about it that we do not understand, and we can't quite tell 
how committed people around him are; such as some of the major 
business figures and the military.
    I should mention also that the President's not clearly in 
control of the military. How serious that is or how permanent 
that is, I don't know. But the ongoing violence in Kachin, for 
example, is something that gives rise to some doubt about his 
commitment or ability to resolve that conflict and to human 
rights in general.
    Despite the fact that Burma is something that we are 
optimistic about, I am worried that the administration has 
moved rather quickly in removing its sources of leverage, 
lifting sanctions well before national elections or a 
constitutional amendment that would reduce the role of the 
military or enable Aung San Suu Kyi to run for President.
    At the same time, I do think Burma--and I think this came 
up from the previous pane--Burma has the potential to be a 
demonstration case or to be a model for the pivot or for the 
rebalance. It showed that the United States could pursue a 
policy over decades of supporting a democratic opposition and 
really lead the rest of the world in maintaining that course, 
and not wavering in that course when others decided to depart 
from it. I think that that has paid off enormously in Burma and 
that it is a major factor why Burma is moving in the right 
direction.
    And I would just like to mention that when I visited Burma 
last August, I heard from ordinary Burmese, including many 
people who were former political prisoners, that their ability 
to go forward, but also their ability to resist Chinese 
influence, depends on a strong relationship with the United 
States and Europe.
    We all know that the administration is careful not to 
present the rebalance as a challenge to China, and that is 
understandable. On the other hand, the rebalance in my view 
cannot proceed effectively if we do not address China as a 
major democracy and human rights problem.
    China presents itself as an alternative governance model 
throughout the world, and particularly in the region, and even 
as its own human rights record is deteriorating by the 
administration's own account. The administration's human rights 
policy is lacking in a number of ways. I simply think that 
engagement without consequences for rights abuses is not very 
effective. There is a great emphasis on things like the human 
rights dialogue with Beijing, which is not a very serious way 
to advance human rights.
    Not only should the United States be pursuing a more 
serious human rights policy toward China, it also needs to join 
with other democracies in the region to advance democratic 
principles and find a way to coordinate in a multilateral way 
on such things. That kind of coordination needs to look forward 
toward developments that we are all going to face, like the 
selection of Hong Kong's chief executive in 2017. We would be 
naive if we did not think that China might decide to come up 
with an undemocratic way of selecting that post.
    The Burma elections are another matter the United States 
must prepare for, and I would like to emphasize that Tibet also 
requires our attention. The Dalai Lama's devolution of his 
political power to an elected leader, Lobsang Sangay, is a 
major development that has not gotten enough attention from the 
international community or the United States.
    Asia's existing multilateral fora are not well-suited to 
building support for democracy and human rights. Now would be a 
very good time for the United States to explore the creation of 
a multilateral forum of Asian democracies. Democracy and human 
rights as a criterion for membership and as a top priority. 
That, I think, would be a major and admirable outcome of the 
rebalance.
    Thank you.
    [The prepared statement of Ms. Bork follows:]

                    Prepared Statement of Ellen Bork

    Mr. Chairman and members of the committee, it's an honor to testify 
before you and a pleasure to return to the Foreign Relations Committee 
where I served as a staffer for Chairman Helms and Senator Thomas in 
the late 1990s.
    Mr. Chairman, you convened this hearing to address the democracy, 
good governance, and human rights elements of the ``rebalance to 
Asia,'' a policy President Obama launched in late 2011. That policy has 
come in for criticism from military experts who believe it is not 
adequately resourced. As for democracy and human rights, it remains to 
be seen whether the administration's stated commitment to values as the 
``heart'' of the rebalance will be fulfilled.
    Rhetorically, the administration has laid out a strong case for the 
importance of values to the rebalance. When President Obama spoke to 
the Australian Parliament in 2011 he linked the policy to Asia's most 
dramatic struggles for freedom and to the pursuit of ``free societies, 
free governments, free economies, [and] free people.''
    However, as the President begins his second term, his record of 
support for democracy and human rights is mixed at best. His weak 
response to the Iranian elections and the Green movement, failure to 
challenge the rise of authoritarianism in Russia and Venezuela and lack 
of leadership in supporting Democrats in Arab Spring countries are all 
worrisome signs that the President may not follow through on his own 
words when it comes to Asia.
    The administration can of course point to Burma as an exciting 
development under its watch. Aung San Suu Kyi, released from many years 
under house arrest led her National League for Democracy Party in by-
elections, sweeping almost all the available seats. Significant easing 
of repression has occurred under Burma's President, the former general 
Thein Sein. However, much remains to be done and much remains opaque. 
At times Thein Sein has seemed not to control the military--or if he 
does, he has been unwilling to rein in those forces as they wage war in 
Kachin.
    Indeed, there is reason for concern about the haste with which the 
Obama administration is lifting sanctions and pursuing ties with 
Burma's unreformed military even before Burma has held nationwide 
elections or changed the constitution to diminish the role of the 
military and allow Aung San Suu Kyi to be a candidate for President.
    Nevertheless, the lesson of Burma must be that a policy that placed 
support for democracy over purely strategic interests can succeed. In 
Burma, the United States supported a democratic movement for 25 years, 
applied sanctions and political leverage and persevered even when other 
countries followed other paths. That was the right thing to do, and the 
Burmese people know it. Burma's people ``want very much to be 
associated with the United States,'' the journalist and former 
political prisoner Maung Wuntha told me in August 2012. ``They believe 
that the ability to resist China depends on strong relationships with 
the United States and Europe.''
    Of course, the rebalance is inspired by China, whether the 
administration says so explicitly or not. The administration simply 
cannot advance the rebalance's democracy component without a better 
human rights stance toward China, because the challenge China presents 
is not simply its growth in economic and military power but also its 
example as an alternative political system. Even as the administration 
cites continuing deterioration in China's human rights situation, it 
insists that abuses are best addressed in private with Chinese 
officials, or sometimes obliquely, as Secretary Clinton did in Mongolia 
last summer.
    In keeping with an ``engagement'' policy that has prevailed since 
the adoption of PNTR for China, there is no serious threat of 
consequences for abuses. Washington's human rights dialogues with 
Beijing are the embodiment of ``de-linkage.'' At last year's dialogue, 
the administration explicitly rejected the idea that the dialogue is a 
forum for obtaining releases of political prisoners or for negotiating 
systemic change. More generally, the United States undermines its 
stated commitment to human rights by carrying on business as usual and 
failing to integrate these vital topics into the centerpiece of U.S.-
China relations, the Strategic and Economic Dialogue.
    To build on the progress in Burma, the United States must shape the 
political environment in Asia. Both bilateral and multilateral 
diplomacy are necessary. This administration is joining the region's 
existing institutions. President Obama participates in the East Asia 
summit, for example. However, once inside organizations with broad 
agendas and no political criteria for membership, the United States 
frequently runs up against Chinese influence that may run counter to 
those of America and its allies.
    If the administration is serious about pursuing democratic values 
and objectives as part of the rebalance, some new thinking is in order. 
A forum for Asian/Pacific democracies would be useful. While many Asian 
countries are pleased to see the U.S. participating in fora with China, 
those fora are often inhospitable to an agenda based on democratic 
values. ``Chinese multilateralism,'' Gary J. Schmitt has written ``is 
not driven by some new commitment to liberal internationalism, but by 
old-fashioned realpolitik and China's desire to stem interference in 
its own domestic rule.''
    Greater coordination among the region's democracies would enable 
effective responses to crises or other events and could also prevent 
the backsliding that occurs without such bulwarks in place. A forum of 
Asian democracies might consider: preparations for the 2015 Burma 
elections and the 2017 date for a change in the way Hong Kong's chief 
executive is chosen. Tibet is another issue that would benefit from 
coordinated action among the democracies. The United States and its 
allies must consider the momentous changes that have taken place in the 
Tibetan leadership, that is, the Dalai Lama's handover of political 
power to an elected leader of the exile government and the Dalai Lama's 
plans for his succession.
    Asia is undergoing a wave of leadership transitions. Presidents 
Shinzo Abe and Park Geung Hye have just taken office in Japan and South 
Korea respectively. Indonesia is having an election next year. Now is a 
good time to consider greater coordination among the region's 
democracies. Although China would certainly object to such a group, the 
alternative will be to struggle with China's growing assertiveness in 
the organizations it dominates.
    Democracy has made strong gains in Asia over the past few decades. 
The United States should build on that foundation with an 
institutional, multilateral framework that would help sustain and make 
permanent this progress and the peace and prosperity that comes with 
it. That would be a great outcome of the rebalance policy and an 
excellent legacy for President Obama.

    Senator Cardin. Well, thank both of you for your testimony.
    We get some of our best information on evaluating human 
rights progress from the NGOs. Can you just give us a status as 
to how well the NGO community is able to operate in countries 
like Burma, Cambodia, or Vietnam, or Laos, which are countries 
in transition where we have had inconsistent progress on the 
human rights front, and how helpful the United States interest 
has been in promoting the access and strength of the NGOs in 
these countries?
    Mr. Rood. Thank you, Mr. Chairman. I think I would begin by 
stressing that there are a wide variety of situations that you 
just canvassed. Many of the different groups have different 
experiences. The Cambodian civil society is considerably more 
robust, for instance, than is the Laotian civil society, which 
is very much more fragile. So one needs to take into account 
the differing abilities of the civil society organizations 
themselves.
    Second, I would say that the United States interest is 
crucial in this, because without the ability to point to the 
domestic developments, but also the international developments, 
these civil societies, nascent as they might be, are very much 
handicapped.
    Third thing I would say is that my experience--and I first 
got to the Philippines back under the Marcos dictatorship--my 
experience has been that there are always people that you are 
able to begin to lever relationships with, within the 
government, within the private sector, and so on. So one of the 
abilities of international NGOs is to help local civil society 
move toward a more enabling environment.
    Senator Cardin. Mr. Rood, I want to ask you your advice. 
You have been very much involved in the Philippines, in the 
southern Philippines. Mindanao has made progress in a 
longstanding conflict. We are not quite complete yet. There is 
a process moving forward. Could you just share with us what 
lessons are learned and how that conflict has been recently 
handled that could help us with ethnic problem resolutions in 
Burma or in Thailand or in other countries where we still have 
conflicts that are far from being as advanced as we hope is 
happening in the southern Philippines?
    Mr. Rood. Yes, Mr. Chairman. I attend the peace talks in 
Kuala Lumpur as an official member of the International Contact 
Group and have considerable interaction with the people working 
on peace movements in both southern Thailand and Myanmar, 
Burma.
    It seems to me that there are a number of different lessons 
to be learned. The first is that one needs to have leadership 
from the executive branch of the government. That is, the 
President or the Prime Minister needs to be engaged.
    Second, there does need to be a long process of change in 
the military mindset. One of the things that we have been able 
to do in the Philippines is send people from the Philippines, 
generals from the Philippines who have become more aware of the 
importance of relating to communities, avoiding human rights 
violations and winning that way, sending them to places like 
southern Thailand and Burma so that generals on those sides 
begin to see the utility of other ways of undertaking this 
activity.
    Third, one needs to build linkages both between 
international civil society and domestic civil society, but 
also among domestic civil society and the media there so that 
the citizens of the country, the broader citizenry both 
understand how these minority issues affect them rather than 
being some far-off problem that need not concern them, and help 
them bring the national government along.
    Senator Cardin. Ms. Bork, we have invested a lot in Burma 
recently. It has gotten a lot of attention from the United 
States. We have seen some progress being made. What is your 
confidence level that there really is a path that will lead in 
a reasonable period of time to a democratic country that 
respects the rights of its citizens?
    Ms. Bork. My confidence on that goes up and down. I think 
it depends on a lot of things. I am not always clear that the 
leadership in Burma is--it is not so much that I don't think it 
is committed to reform. I think, having been under such 
incredible isolation and following such a different route for a 
long time, it would be understandable that reaching a result 
that we would approve of or see as a real achievement of 
democracy will be very difficult.
    It will take more than the 3 years between now and 
elections for that to happen. I am optimistic, if everyone does 
their part, that we can get to the right place. I think the 
Burmese people are very resilient and have done an 
extraordinary job of maintaining this cause this long. I am 
worried about corruption and rule of law. I am worried about 
those actors that have influence using it for the wrong 
purposes, and I am worried about reengagement with the Burmese 
military in ways that are not helpful to a transformation of 
that military into a civilian, democratically supervised 
military.
    Senator Cardin. Is there a further role for the United 
States in regards to those concerns to help give us a better 
chance toward progress?
    Ms. Bork. Absolutely. I think that we have very talented 
diplomats working on all of this. I think there is a role for 
Congress to remain engaged, because Congress played an 
extremely important role by maintaining this cause over such a 
long period of time and by having very high standards. There 
are always people who would like to engage more, so to speak, 
not that that word really is very helpful all the time, or to 
engage without high standards, let's say.
    Senator Cardin. When you refer to Congress, or are you 
referring to the sanction part of it, or are you referring to 
the tools for progress, or all of the above?
    Ms. Bork. Well, all of the above. I think Congress' role in 
helping to reach this point is huge. So I think Congress needs 
to remain engaged. I think that it is understandable that as 
Aung San Suu Kyi has emerged and indicated her willingness to 
move forward and change our policy, that people have wanted to 
do that. But I think there is momentum in moving away from the 
policy we held, and we have to be a little careful about that 
and just be nimble about remaining engaged and finding the 
right moments to continue to use our leverage and express 
ourselves in principled terms.
    Senator Cardin. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. I am 
sorry I was not here for the first panel, and welcome to our 
second.
    I really just had one subject to explore, and that is to go 
a little bit more deeply into the leverage that comes through 
military cooperation. We are clearly going to be more tempted 
during this pivot to engage in joint exercises to provide 
training, and to link ourselves with the various militaries of 
the region, and you have seen that already in a place like 
Cambodia, where we still know that there are 300 political 
murders over the last 20 years. We are providing military 
training to an elite unit commanded by a member of the ruler's 
family.
    In Burma, of course, we have a temptation to engage in 
increased military cooperation given the recent events.
    My question, I guess, is this. What do we know about the 
leverage that comes with military cooperation? What opportunity 
does that offer, present us in terms of trying to push 
societies to take on issues of human rights, and where are some 
instances in countries where you think we maybe have gone too 
far already, where we have engaged in a way that would send the 
opposite message, that our willingness and our interest in 
moving military operations into the region has maybe sent a 
signal that we are going to jump before they have done the 
things necessary that historically we have looked to to comply 
with the Leahy law?
    Ms. Bork. Thank you for that question, Senator. I worked 
here a long time ago when there was a desire to engage with the 
Indonesian military, and it gave me a skepticism about military 
training that is seen as the vehicle for bringing about 
democratic transition. It seems to me that any military 
engagement that we proceed with on the Burmese side--which I am 
not sure should be happening, or if it is, it should be 
happening in a very limited way, and I think Acting Assistant 
Secretary Yun said it was--it needs to remain at all times as 
the instrument of the larger policy.
    In Indonesia, there were times where it seemed that, 
because it was an authoritarian regime, that we needed to 
engage with them and that we could get close to leaders of that 
regime, and that this would have its own sort of momentum 
toward reform and serve our interests. But it did not, and that 
caused a lot of problems.
    As any engagement with the Burmese military goes forward, 
it would be very useful for Senators to ask about the lessons 
learned from these previous occasions. You mentioned the very 
troubling example of Cambodia. I remember also in the late 
1990s that after a coup in Cambodia, Hun Sen's son continued to 
attend West Point, which seemed to me to send a really weird 
signal. That kind of thing happens too often and such mixed 
signals can be reduced only so long as there is a very coherent 
policy that extends to the military and it is not operated in a 
separate way.
    I did like that Dan Baer said that democracy is not just 
the result of the rebalance; it should be a means of achieving 
the rebalance. He really sees it as an integrated element. So 
that applies to military training as well.
    It seems to me that I think the Burmese Government very 
much wants the opening to the United States for strategic 
reasons of their own. That provides the United States with 
leverage to seek serious reform in the Burmese military in 
order to have the relationship with us that they want.
    Senator Murphy. Mr. Rood.
    Mr. Rood. Yes. As you can imagine, I have been observing 
the Philippine mil-mil relationship with the United States as 
it revived after the expulsion from the bases, and it has been 
long term, and it has been gradual, and on the whole it has 
been very positive. The human rights violations by the 
Philippine military have declined, and the ability to achieve 
security gains without using actual violent deadly force has 
been very much improved, and they now have a new internal 
security plan which puts human rights at the center of it, and 
they are retraining their entire people.
    However, during that time, there were times when it was 
clear that there was backsliding. There were times when the 
extra-judicial killings skyrocketed. So in that process, one 
needs to be continually evaluating whether or not we are 
achieving these goals that we are setting both in terms of 
security, of course, but in terms of democracy and human rights 
through that activity.
    Senator Murphy. One additional question. Ms. Bork, maybe 
you can take this. Last summer, many people were gripped by the 
exodus of ethnic Muslims out of several regions in Burma. What 
do you sense is the seriousness of the new government to tackle 
that issue moving forward?
    Ms. Bork. The Rohingyas' plight is very serious, and it is 
striking to me that there is intolerance throughout Burmese 
society on this. It is not confined to the military although 
the military, of course, is in a position to behave worse than 
civil society. But it seems to me that there needs to be 
greater leadership by Burmese leaders to change decades-long 
discrimination and racism toward the Rohingya, and it has been 
disappointing that leading Burmese human rights activists have 
not been at the forefront of efforts to do that. At times, it 
has seemed that the President himself has done a bit better.
    A lot of things need to change in order for that problem to 
be resolved. I am worried about the deep-seated prejudice and 
laws and attitudes that have not yet been changed about the 
Rohingya. So that should be a top priority.
    Senator Murphy. A top priority for us, as well.
    Ms. Bork. Yes.
    Senator Murphy. Thank you, Mr. Chairman.
    Senator Cardin. Thank you.
    As I said in my opening statement, one of the major 
barometers on good governance is how countries deal with and 
treat women. It is critically important not just for advancing 
human rights. It is economic issues, whether you will have 
sustainable economies, and I would say it also is very much 
related to the military security of a country, the way that it 
involves and gives rights to women.
    Can you just give us your assessment as to what countries 
we should be concentrating on in order to advance gender equity 
issues, which you think are the most problematic at this point?
    Mr. Rood. Thank you, Mr. Chairman. The foundation considers 
the issue of gender equality and women's empowerment very 
deeply indeed. It seems to me that we have, again, a range of 
countries where sometimes the social structure is relatively 
egalitarian, as it is in the Philippines, for instance, where 
women on the average are better educated than men and they 
have, except for politics, pretty equal opportunities. However, 
they still suffer disproportionately from the victimization of 
trafficking. So even in an area where you have got good social 
equality, there are women's issues to be addressed.
    It seems to me that in any country, there are issues that 
need to be brought up with respect to property rights, with 
respect to the ability to obtain an education, with respect to 
access to health. So I think that in any particular country, 
there would be issues that we would need to push forward with 
respect to women, rather than singling out any particular 
country.
    Senator Cardin. I appreciate that. We will be looking 
country-specific and would appreciate your guidance as we do 
that.
    Ms. Bork, in any of the countries that you have been 
involved with, is there some specific issues that you would 
want us to deal with and concentrate on? Let us start with 
Burma, since you were recently in Burma. What is the status of 
women in Burma?
    Ms. Bork. I am not a sociologist on that point. I have to 
say that in every country in Southeast Asia, there seems to me 
to be reasons to work very hard on gender equality. I do not 
have anything else to add to that.
    Senator Cardin. That was a diplomatic answer but one that 
is accurate. There is a problem in every country.
    I think, Mr. Rood, your point about the Philippines is a 
good point, that even a country that does protect in its legal 
structure and in practice opportunity for women, that there are 
major areas of concern. Trafficking is a huge issue in Asia, so 
we are going to spend some time on trafficking. We have made a 
lot of progress because it is no longer accepted, and therefore 
we need to root out those who are facilitating it, whether they 
are origin countries or destination countries or transit 
countries. We really do need to have a game plan to rid us of 
this modern form of slavery, and we will continue to do that.
    The gender equity issues have been a very high priority of 
the Obama administration and will be a very high priority of 
this committee.
    Mr. Rood. If I may, Mr. Chairman, one of the issues you 
raised in your opening statement about subnational conflict, 
ethnic conflict, is a contributory factor to the issues of 
trafficking, because women in those situations are terribly 
vulnerable to being trafficked. So even in a place like the 
Philippines, much of the trafficking takes place out of the 
southern Philippines because of the displacement caused by the 
conflict. Similarly in Burma, the ethnic minority areas and 
southern Thailand, and so on. So conflict is one of those 
issues that disproportionately falls on women.
    Senator Cardin. There is no question about the 
interrelationship of these issues, you are absolutely right. 
Conflict areas are areas where there is going to be horrible 
tragedies in many different ways.
    Let me thank you again for your testimony. I think this is 
the first of a series of hearings that we will be holding on 
the rebalancing, so we will be spending other attention to it, 
maybe specific countries, maybe other general areas. I will 
review that with Senator Rubio. But again, thank you for your 
testimony.
    With that, this subcommittee will stand adjourned.
    [Whereupon, at 12:20 p.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
